<html>
<title> - THE DARK WINTER SCENARIO AND BIOTERRORISM</title>
<body><pre>[Senate Hearing 107-431]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-431
 
               THE DARK WINTER SCENARIO AND BIOTERRORISM 

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-479 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  



























                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky


                                  (ii)

  



















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

               The Dark Winter Scenario and Bioterrorism

                            October 25, 2001

                                                                   Page

Nunn, Hon. Sam, [Former Senator from Georgia], Cochair and Chief 
  Executive Officer, Nuclear Threat Initiative...................     8
O'Toole, Dr. Tara, Deputy Director, Johns Hopkins Center for 
  Civilian Biodefense Strategy...................................    10
Larsen, Col. Randall J., USAF (Ret.), Director, Anser Institute 
  for Homeland Security..........................................    13

                                 (iii)


               THE DARK WINTER SCENARIO AND BIOTERRORISM

                              ----------                              


                       THURSDAY, OCTOBER 25, 2001

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:08 a.m. in 
room SR-222, Russell Senate Office Building, Senator Mary L. 
Landrieu (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Levin, 
Lieberman, Cleland, E. Benjamin Nelson, Carnahan, Dayton, 
Warner, Roberts, Hutchinson, and Collins.
    Committee staff members present: David S. Lyles, staff 
director, and Cindy Pearson, office/security manager.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Michael J. McCord, professional 
staff member; Arun A. Seraphin, professional staff member; and 
Terence P. Szuplat, professional staff member.
    Minority staff members present: Edward H. Edens IV, 
professional staff member; Carolyn M. Hanna, professional staff 
member; Mary Alice A. Hayward, professional staff member; and 
Cord A. Sterling, professional staff member.
    Staff assistants present: Gabriella Eisen and Daniel K. 
Goldsmith.
    Committee members' assistants present: Erik Raven, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Jason Matthews, Marshall A. Hevron, and Jeffrey S. 
Wiener, assistants to Senator Landrieu; William K. Sutey and 
Dan Shapiro, assistants to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; Neal Orringer, assistant to 
Senator Carnahan; Brady King, assistant to Senator Dayton; 
Wayne Glass, assistant to Senator Bingaman; John Gastright, 
assistant to Senator Thurmond; Robert Alan McCurry, assistant 
to Senator Roberts; James P. Dohoney, Jr., assistant to Senator 
Hutchinson; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; and Derek 
Maurer, assistant to Senator Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. The Subcommittee on Emerging Threats and 
Capabilities will now come to order. I thank you all for your 
attendance, and particularly want to begin by thanking the 
staff for their excellent work in putting this hearing 
together. Hearings are always difficult to undertake, and quite 
a challenge even when you have rooms and phones and fax 
machines, and when you do not have any of those it is that much 
more difficult. I want to thank the staff and the members, 
thank you all for the work you have put together to help us 
conduct this very important and quite serious hearing today.
    I am pleased to have a distinguished panel that will be 
introduced in more detail later, but we have with us former 
Senator Sam Nunn, Dr. John Hamre, Dr. Tara O'Toole, and Col. 
Randall Larsen, who are all experts in the area of weapons of 
mass destruction, biological and chemical agents, and the 
current crisis and threat that is before our Nation.
    I will be calling on Senator Cleland to make a more formal 
introduction of Senator Nunn, but let me begin with opening 
statements. After the statements we will have a round of 
questions for our panel.
    We preceded this open session with a very brief 
presentation called Dark Winter. It was, indeed, riveting and 
instructive, and very timely. I would like to give the well-
orchestrated Dark Winter exercise a bit more context. There is 
a perception in this country that the biological attack that we 
are currently under is unprecedented, unpredicted, and 
unparalleled. While these attacks represent a new kind of war 
for America, they have precedence throughout human history.
    The great Chinese strategist Sun Tzu is well-known to many 
members of this subcommittee, and no doubt to our witnesses. 
One of his famous dictums on strategy is: ``The supreme act of 
war is to subdue the enemy without fighting.'' This proverb on 
warfare is used in all sorts of contexts. Diplomats have used 
it to advocate for more robust diplomatic initiatives. Other 
experts have cited it to discuss the importance of planning and 
simulation. However, its real context brings us to the heart of 
what Dark Winter is all about. Sun Tzu was suggesting to 
Chinese generals in 340 B.C. that they poison the wells of 
their enemies. In doing so, they would weaken their opponents' 
capability and, more importantly, their will to fight before a 
sword had even been raised.
    Our subcommittee meets this morning to discuss the 
presentation of the Dark Winter exercise held earlier this 
summer to simulate the effects of a hypothetical biological 
warfare attack on the United States, using smallpox. The 
purpose of this hearing really impacts another ancient dictum 
from Sun Tzu, ``Know your enemy, know yourself, and you can 
fight 100 battles without disaster.'' That, I hope, is what 
this subcommittee is really about, and what this subcommittee 
has been about for the 3 years that it has been in existence. 
Under the direction of my colleague to my left, Senator 
Roberts, it is what has helped us all to be more informed and 
to hold to this important dictum.
    The Dark Winter exercise we just reviewed was created to 
teach us something about our enemies--what might they do in a 
worst case scenario? However, it was also intended to teach us 
something very important about ourselves. It is a test of our 
ability to react to a biological attack. Are we ready? By using 
real policymakers, it exposed some of the weaknesses that 
imperfect information, political pressure, and doctrinaire 
thinking can have upon our matrix of decisionmaking. These 
weaknesses, if left unaddressed, could have dire consequences 
for this Nation and for the world.
    The timing of this exercise comes almost 90 days before the 
real biological attacks, now using anthrax. It appears to have 
foreshadowed this event. At that time, no one imagined that we 
would be facing a biological weapon terrorist attack right here 
in the United States Senate and elsewhere in the Nation, using 
the U.S. Postal Service as the means of delivery.
    Now, all Americans understand how important it is to think 
through and plan ahead for such once unthinkable contingencies. 
We are living through one today.
    Before welcoming our witnesses, I want to comment on the 
context of today's hearing. The issue of bioterrorist attack is 
no longer hypothetical. It is happening around us. Although 
this Dark Winter scenario represents a fairly dire scenario, 
many of the issues raised in this study are the same ones we 
are confronting now at the Federal and state levels. The 
administration and Congress have handled this situation fairly 
well under the very difficult circumstances of 
underpreparedness, yet whatever success we have enjoyed as a 
consequence has been a result of the dedication of public 
servants across this Nation--individual citizens and 
professionals, a whole gamut of professionals who are straining 
every resource to ensure that we do not falter.
    The Department of Health and Human Services has recently 
announced a number of steps. I agree with many of them, but 
they are not the only agency that must be fully and completely 
engaged in this effort. This afternoon, the full Armed Services 
Committee will conduct its first hearing concerning DOD's role 
in homeland defense. I expect much of what we have learned in 
this brief will inform our questions for that hearing.
    In conclusion, let me just state again how much I 
appreciate the leadership of this subcommittee by Senator Pat 
Roberts in the 3 years that he chaired this subcommittee. His 
opening statement, which I suggested that he take and dust off, 
that he gave literally 3 years ago when this subcommittee was 
organized, could literally be used this morning, and it shows 
how on point those directives were. As the former chair of our 
subcommittee joins us--Senator Warner, I said before you came 
that this subcommittee was stood up because of the foresight 
that you showed in helping us to stand this subcommittee up.
    Much of the record that this Nation will use to improve its 
defenses and beat back this enemy and deal with what is a major 
threat to this Nation, that work has been conducted here in 
this subcommittee under the leadership of Senator Roberts and 
the Ranking Member, Senator Bingaman. Today we continue that 
work. It is very important work, and it is imperative that it 
be done in as urgent a manner as possible.
    With that, let me turn to my ranking member for an opening 
statement, then we will go to a line of questioning. Senator 
Warner, I would be happy to recognize you for a moment.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    I would like to thank you all for that excellent presentation, I 
know our members found it most useful. In my opening remarks, though, I 
would like to give the Dark Winter exercise a bit more context. There 
is a perception in this country that the biological attack that we are 
currently under is unprecedented, unpredicted, and unparalleled. While 
these attacks represent a new kind of war for America, they have 
precedence throughout human history. The great Chinese strategist Sun 
Tzu is well-known to many of the members of this subcommittee, and no 
doubt to our witnesses. One of his famous dictums on strategy is:

        ``The supreme act of war is to subdue the enemy without 
        fighting.''

    This proverb on warfare is used in all sorts of contexts. Diplomats 
have used it to advocate for more robust diplomatic initiatives. Other 
experts have cited it to discuss the importance of planning and 
simulation. However, its real context brings us to the heart of what 
Dark Winter is all about. Sun Tzu was suggesting to Chinese generals in 
340 B.C. that they poison the wells of their enemies. In doing so, they 
would weaken their opponents' capability and will to fight before a 
sword had even been raised.
    Our subcommittee meets this morning to receive a presentation of 
the Dark Winter exercise held earlier this summer to simulate the 
effects of a hypothetical biological warfare attack on the United 
States, using smallpox.
    The purpose of this hearing really impacts another ancient dictum 
from Sun Tzu,

        ``Know your enemy, know yourself, and you can fight a hundred 
        battles without disaster.''

    The Dark Winter exercise was created to teach us something about 
our enemies--what might they do in a worst case scenario? However, it 
was also intended to teach us something very important about ourselves. 
It is a test of our ability to react to a biological attack. By using 
real policymakers, it exposed the weaknesses that imperfect 
information, political pressure and doctrinaire thinking can have upon 
our matrix of decisionmaking. These weakness, if left unaddressed, 
could have dire consequences for this Nation.
    The timing of the Dark Winter exercise, coming almost exactly 90 
days before the real biological attacks now using anthrax, appears 
prescient. When Senator Roberts and I first decided to hold this 
hearing, it was before the terrorist attacks of September 11.
    At that time, nobody imagined we would be facing a biological 
weapon terrorist attack right here in the Senate and elsewhere in the 
Nation, using the U.S. Postal Service as the means of delivery. Now all 
Americans understand how important it is to think through and plan 
ahead for such once unthinkable contingencies. We are living through 
one today.
    Before welcoming our witnesses, I want to comment on the context of 
today's hearing. The issue of a biological terrorist attack is clearly 
no longer hypothetical. It is unfolding daily around us.
    Although Dark Winter represents a fairly dire scenario, many of the 
issues raised in the study are the same ones now confronting the 
Federal and state authorities in those locations where anthrax has been 
sent. There are serious questions about antibiotics, about vaccines, 
about how to know what is happening and how to keep the public 
informed. It is a very considerable public health challenge, and a 
government management challenge.
    I think the administration and Congress have handled the situation 
well under very difficult circumstances. Yet whatever successes we have 
enjoyed is a result of the dedication of public servants across the 
Nation, who are straining every resource to ensure that we do not 
falter. The Department of Health and Human Services has recently 
announced a number of steps to deal with the current anthrax mailings, 
and with potential future attacks involving smallpox. They are 
appropriate and are universally endorsed. However, as the Dark Winter 
exercise makes clear, HHS is clearly not the only agency that needs a 
comprehensive plan about the role it will take in a domestic biological 
attack. This afternoon, the full Armed Services Committee will conduct 
its first hearing into the Department of Defense (DOD)'s role in 
homeland defense. I expect that much of what we have learned in this 
brief will inform our questions for that exercise.
    There is one sense in which we are quite fortunate. We have been 
given a shot across the bow with this attack of anthrax. What has 
occurred has been a tragedy for the victims and their families. I would 
have done anything in my power to prevent it. Yet the brief that we 
just viewed makes clear that it could have been much worse. Had we been 
attacked initially with a communicable agent, and been caught unaware, 
we might be facing a crisis which would make current events pale in 
comparison. However, when it comes to biological attack, forewarning is 
an incredible asset. If we harness the power of the knowledge we now 
possess, we may forestall an even greater tragedy.
    This exercise provides a real asset to our administration as well. 
It should inform the decisions of Governor Ridge as he undertakes his 
herculean task. It should inform the decisions that we make here in 
Congress. Ultimately, I am confident that its findings will inform the 
decisions that all Americans will need to make with respect to the 
delicate balance that we must craft between personal liberty and public 
safety.
    As for the attack that we are addressing here in Washington, it 
should be noted that anthrax is not a contagious disease, and it is 
easily treated with antibiotics if exposure is known or presumed. 
Smallpox, the subject of the Dark Winter simulated attack, would 
present additional, but hopefully manageable, challenges. In any event, 
one of the most important issues confronted in the Dark Winter exercise 
is the need to inform the public on what steps to take if we are to 
avoid a breakdown in the American way of life. While we are a long way 
from the worst case scenario in our present circumstances, the American 
public is justifiably anxious about our level of preparations. Dark 
Winter teaches us that we literally cannot do enough to educate the 
American people about this threat ahead of time, so that should we 
suffer additional attacks, we will be ready. Walter Lacquer in his book 
``The New Terrorism'' reminds us that the destruction caused by a 
weapon may be, in itself, relatively insignificant. The real danger 
stems from the damage caused to our civil institutions, which rely on a 
functioning democracy.
    This is not a new task for the Federal Government. Everyone in this 
room remembers the civil defense educational efforts in the fifties. I 
bet there are people in this room who could hum the tune to the old 
``duck and cover'' cartoons. Now, I am not suggesting that we use that 
over-simplified model of the threat of nuclear weapons for dealing with 
the threat of biological weapons. Yet, the American public must have 
that same level of familiarity with this threat. It is incumbent on 
Congress to provide the administration with resources to undertake such 
an effort. Furthermore, we must take the legislative steps necessary to 
bridge gaps in our system of emergency response--to tear down fifedoms 
that inhibit the flow of information and intelligence. It is the 
particular responsibility of the Armed Services Committee to ensure 
that the Department of Defense is playing an appropriate role in these 
activities.
    As this subcommittee's name implies, this hearing will focus not 
only on the now-emerged threat of a biological terrorist attack, but 
also on the lessons learned and the additional steps to take to provide 
new, necessary capabilities so we can better prepare for such potential 
attacks in the future. These steps presumably include better 
coordination between Federal and state officials, better intelligence 
on likely threats, and more research on the vaccines and drugs needed 
for medical efforts.
    The topic of this hearing is of such great interest that we have 
invited all members of the full committee to join us if they can, and I 
want to welcome those members who are able to participate.
    We are very pleased today to have one of our own, the former 
chairman of the Armed Services Committee, Sam Nunn, here to present the 
Dark Winter exercise. I understand that you played the role of the 
President in the exercise, which must have been a sobering experience. 
Senator Cleland will be introducing you after Senator Roberts has made 
his opening comments. However, let me just express my feelings about 
Senator Nunn. This country and this Congress owe you and Senator Lugar 
an enormous debt of gratitude for your vision and work in this field. 
Through your cooperation with the Center for Strategic and 
International Studies (CSIS), the Nuclear Threat Initiative, and your 
work on the hallmark Nunn-Lugar legislation, you have done more than 
almost any single human being to protect the future of your Nation. All 
of us on this subcommittee stand on the shoulders of a true giant when 
we undertake the work that you initiated in this body.
    We are also glad to have Dr. John Hamre join us today. Dr. Hamre is 
the President of the Center for Strategic and International Studies, 
and he played a major role in organizing the exercise. John is well-
known to this committee as the former Deputy Secretary of Defense, and 
in an even more noble calling to public service, a staff member of this 
committee. He has shown himself to be one of the most forward thinking 
yet pragmatic minds that our Nation can call upon in this time of 
crisis. I am very pleased that he is able to join us.
    We also want to extend a warm welcome to Dr. Tara O'Toole and 
Colonel Randy Larsen, who were instrumental in the creation of this 
exercise. Dr. O'Toole is a public health expert and Deputy Director of 
the Johns Hopkins Center for Civilian Biodefense Strategy, who can help 
us understand some of the complex issues related to managing such an 
attack. Colonel Larsen is Director of the ANSER Institute for Homeland 
Security, and he is retired from the Air Force. I would like to thank 
both of them for their excellent work in bringing Dark Winter to 
fruition.
    Before turning to our witnesses, I would like to ask Senator 
Roberts, my ranking member and the first chairman of this subcommittee, 
to provide any opening comments he wishes to make. I suggested to 
Senator Roberts yesterday to dust off the opening statement he gave 
nearly 2 years ago in this same subcommittee. The worked that he 
established with Senator Bingaman over the last 3 years demonstrates 
much needed leadership and foresight. I consider myself fortunate to 
have him as my ranking member. To give you some sense of this man's 
capability, let me just read from his statement on March 22, 2001: 
``Terrorism is not new. What is new, however, is the arsenal of 
weaponry now potentially available to the terrorist groups. The modern 
tools of the terrorist trade may no longer just be machine guns and 
truck bombs. The new death machine employed in the name of a higher 
being by self-proclaimed disciples might spring from a chemical 
formula, laboratory vials, or cyber codes.'' That statement summarized 
our current war perfectly. I look forward to his further insight today.

    Senator Roberts. Madam Chairman, I would like to yield my 
time now to the distinguished ranking member. There is a 
general provision conference going on in regards to the defense 
authorization bill, so I would like to yield to Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. I thank my colleague. I will be very brief. 
We are conducting, Chairman Nunn, the general provisions 
conference, and how well you remember that through the many 
years that you served with great distinction on this committee 
as chairman.
    Indeed, the concept that I put in place for the Emerging 
Threats and Capabilities Subcommittee when I became chairman of 
this committee was something you and I discussed often when I 
was ranking under your administration as chairman. I commend 
both of you for carrying on the work that is very important for 
this subcommittee, and the strategic center for which you are 
now the chief executive officer with Dr. Hamre. The two of you 
have done vital work in this area and many other areas.
    This subject of smallpox is now being discussed at all 
levels of our Federal Government. I happen to know it is at the 
highest level, and the work that you did reminds me of Paul 
Revere. It is remote, but the catastrophic proportions are 
almost incalculable. So, as a citizen of this country I express 
my appreciation to your organization, particularly the two of 
you and others at this table who have worked on this issue. But 
it has to be put in proportion--as was raised in a very 
important question here a moment ago by one of our colleagues--
and we cannot scare America. This is one of those times where 
if America takes prudent steps in a timely way we can prepare 
to meet this crisis.
    I hope that this session, Madam Chairman and our ranking 
member, concludes on that note. This is another challenge to 
our country which can be met in a timely way, to avoid the 
catastrophic proportions of a disaster that this disease could 
deal.
    I thank you. Thank you, Madam Chairman.
    Senator Landrieu. Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Madam Chairman, I would like to thank you 
for calling this hearing on an issue that is of vital and 
critical importance. In light of the events of September 11 and 
the recent anthrax attacks, obviously this is very timely, but 
for the nearly 3 years I have served on this subcommittee, 
first as the subcommittee chairman and now as the ranking 
Republican, scenarios such as the one we will review today have 
always been of vital importance.
    As you have indicated, Madam Chairman, when we would have 
witness after witness, and hearing after hearing--and we have 
had them all. We have had the Bremer Commission, the Gilmore 
Commission, the Hart-Rudman Commission, CSIS folks, we have had 
the Top-Off experts. We would always ask them, ``what keeps you 
up at night, what is it that you think would be of gravest 
danger to our national security, our homeland defense?'' The 
number one response in terms of a priority, other than the 
typical response of a car bomb or a truck bomb, was 
bioterrorism. That is why this is so important, and why I 
really credit you, Madam Chairman, for holding this hearing.
    I have been briefed by Dr. Hamre and by Colonel Larsen on 
the Dark Winter exercise. Some of our colleagues have as well, 
and we were again this morning. I am so pleased that we have 
them before the subcommittee today, along with our former 
distinguished colleague and former chairman, Senator Nunn, and 
from Johns Hopkins, Dr. O'Toole. It was riveting in terms of 
the demonstration, and the program put on by Dr. Hamre. That is 
a good way to put it, Madam Chairman.
    It is not that the dog did not bark. We have heard a lot of 
barking now, and if we put it in context I think we can move 
along the lines that Senator Warner has talked about. I hope 
this hearing will guide us as we continue our work to ensure 
that our Nation is prepared for a terrorist attack using a 
weapon of mass destruction, in particular a biological attack.
    I thank you for your leadership.
    Senator Landrieu. Thank you. At this time Senator Cleland 
will introduce Senator Nunn, then we will hear brief remarks 
from Dr. O'Toole and Colonel Larsen.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Thank you, Madam Chairman, and may I just 
congratulate you for having this hearing and for your 
leadership in this particularly vital area of our national 
interest.
    I will say it is chilling to come back to this room, where 
about 6 weeks ago I asked you and the distinguished Senator 
from Kansas, ``what does keep you up at night?'' After Senator 
Roberts had chaired the subcommittee for some 3 years and was 
barking loudly all of those years, and you had just taken over, 
both of you looked at the testimony. You examined the witnesses 
and read the record, and I deliberately asked both of you, 
``what is the greatest threat, in your opinion, to the United 
States?'' Both of you concluded the same thing--number one, a 
bioterrorist attack. I can remember Senator Roberts, sitting 
right over there 6 weeks ago, said, ``it is not a question of 
whether, but of when.'' That was a very chilling moment for me, 
because a week later it happened.
    So I think this is a very serious meeting that we are 
having here today. I would like to take the personal privilege 
of introducing a man who has been a hero to me for many years. 
He has been referred to in this hearing today as Mr. President, 
following the Dark Winter exercise. He has been referred to as 
a chairman. I call him by his first name--sir. [Laughter.]
    This is the man that I attempted to replace and took his 
seat not only in the Senate, in Georgia, but on this 
distinguished committee, and it is an honor to be with him 
today. He continues to serve. He has involved himself in many 
leadership positions. He is the chairman of the Center for 
Strategic and International Studies. He is head of that board. 
He works with the Concord Coalition, and most recently the 
Nuclear Threat Initiative. He continues to bark loudly about 
these issues that are before us today. He informed the Senate 
on a range of issues facing the United States, and has informed 
us over the last few years.
    So it is a pleasure to have him with us here today. Senator 
Sam Nunn, we thank you very much for your diligent work, and 
thank you for continuing to work as a private citizen. Welcome 
to the subcommittee.

   STATEMENT OF HON. SAM NUNN [FORMER SENATOR FROM GEORGIA], 
 COCHAIR AND CHIEF EXECUTIVE OFFICER, NUCLEAR THREAT INITIATIVE

    Senator Nunn. Thank you very much.
    Senator Landrieu. Thank you, Senator. If you want to, 
please make brief remarks, and then we will have a more formal 
statement from Dr. O'Toole and Colonel Larsen.
    Senator Nunn. Let me just say that I am grateful for the 
leadership of this subcommittee. Senator Roberts, you have done 
an outstanding job, Senator Landrieu, you have done a terrific 
job, and I thank Senator Bingaman and all of you for 
maintaining interest in this subject and stimulating the kind 
of support and resources that this country would not have 
provided without this subcommittee. That started right after 
the Cold War and has been continuous for the last decade. It 
has been unheralded. People have not realized it. People have 
not understood it, but nevertheless you have stuck to the 
course of dealing with this subject in a meaningful way. I 
particularly refer to working with Russia in terms of trying to 
get their own arsenals--which were the largest ever made in the 
history of mankind, in terms of nuclear, chemical, and 
biological weapons--under control.
    Some call it the Cooperative Threat Reduction program, some 
call it the Nunn-Lugar program, but it came from this 
subcommittee. It originated here and has been sustained here, 
and Senator Roberts, I am particularly grateful for your 
leadership, because it has been viewed by some as foreign aid, 
which is a totally false premise. It is national security of 
the first order.
    The legislation known as the Nunn-Lugar-Domenici 
legislation also created the framework for domestic protection 
and homeland defense, because it provided funding for training 
emergency personnel at the local level, firemen, policemen, and 
medical personnel, and it provided research funds for early 
protection.
    As the author of that legislation, I think it needs 
updating. It needs a lot of questions, hard questions, asked 
about whether the resources have been spent well, and 
particularly as you are putting this new infusion of money into 
the question of homeland defense we need to ask the question 
about local people. When you go through an exercise like we 
have seen here today, and like those of us on the panel went 
through early this summer, you realize very quickly that no 
matter what we have in terms of an emergency army, or an 
emergency marine unit, or an emergency kind of military unit 
which would be needed--no question they would be needed--they 
cannot be everywhere.
    In the final analysis, homeland defense has to start at the 
local level, and it has to do with coordination between 
emergency personnel, medical personnel, doctors, nurses, and 
veterinarians. Those people have to be trained, they have to be 
given intelligence, a kind of connectivity, so that they can 
let us know when something is happening at the local level. 
Druggists are probably going to be on the very front line. They 
will probably know about an outbreak of disease before even 
doctors would be notified, because people go to the drugstores 
first, I am told. We have to set up a network and connect 
people at the state, local, and Federal levels. That is 
something we have not done in a long time. The National Guard 
certainly plays a big role here.
    Senator Cleland, thank you for your leadership. I am proud 
that you have more than filled my place at the table, and I am 
very grateful for your friendship.
    Without getting into a lot more detail, let me just say 
that homeland defense--and Senator Roberts, I know you agree 
with this--begins by not letting the materials that are now in 
Russia end up dispersed all over the globe. I consider the 
Nunn-Lugar program homeland defense because it has helped get 
weapons under control, but we have an enormous challenge that 
has not yet been met. If you look at all the nuclear material 
that is in Russia, plutonium, and you look at the highly 
enriched uranium, and you look at the biological stockpiles--
and we do not really know what has happened to those--but if 
you look at the chemical stockpiles that are there and are not 
being destroyed, there is enough material there to feed every 
terrorist group in history. They would be oversupplied, and if 
it is not put under control in an urgent way, then we will have 
big problems. Right now, even with the highly enriched uranium 
(HEU) purchase that is being done on a market basis, not a 
security basis, it ought to be accelerated. We ought to 
consider this a matter of national security.
    It is my hope that President Bush and President Putin will 
accelerate all of these programs. Instead of having 20 more 
years to go before the stockpiles are safe and secure, they 
need to put a timeframe on it and mobilize resources from this 
country and the world to make sure that all weapons and all 
materials that are weapons of mass destruction are safe and 
secure in that country as well as this country, and make sure 
that we have the kind of transparency that is absolutely 
essential for confidence not only in each other, but in the 
world.
    There is one other comment I will make that is not directly 
related to this exercise, but I am even more convinced of it 
after going through this exercise. We have a situation on the 
biological side. After World War II we were very wise not only 
in creating the Marshall Plan but in treating Japan and Germany 
as countries that we wanted to have back in the world 
community. We did enormously difficult things politically after 
World War II. We did not do that after World War I. After World 
War II we have had years and years of relative peace in spite 
of the Cold War, and Japan and Germany played a huge role in 
that.
    After World War I we ended up inadvertently creating the 
environment that led to much of the conflict in World War II. 
We have to start acting more like our forefathers did after 
World War II. One of the first things they did in the security 
field was to hire some of the German scientists and bring them 
to this country, because we did not want them in the Soviet 
Union--a very good move. The German scientists played a 
critical role in our space program and our missile program and 
many of our security programs today.
    Let me offer a radical proposal, but one that I think is 
based on common sense. The Russians have all sorts of 
scientists that know how to make weapons of mass destruction, 
particularly biological weapons. They do not know how to make a 
living. They do not know how to feed their families. Now, we 
can step up to the plate and do something for our own security 
by engaging that community, perhaps through the National 
Academy of Sciences in both countries, perhaps through some 
defensive program.
    I would like to see President Bush and President Putin 
announce that we are going to have a joint defensive biological 
program with the Russians, get 50 to 100 of their top 
scientists, and get them linked up with our people. We are not 
going to teach them much. They know more about this than we do. 
When the Soviet Union was making these awful weapons of mass 
destruction, they were also making vaccines. They were making 
early detection devices. It is entirely possible that they know 
more about this than we do, and the last thing we want is those 
people ending up in some other countries around the world, 
which we will not name this morning.
    I think a joint research program and a joint defensive 
program on the biological side with the Russians would send a 
signal to the world, and we would invite other countries like 
China and allies to join us. I just wanted to make a few of 
those rather broad observations before we get into the 
questions, and I would yield at this point.
    Senator Landrieu. Thank you for those remarks, and we 
certainly take that recommendation under serious consideration.
    Dr. Tara O'Toole, Deputy Director, Johns Hopkins Center for 
Civilian Biodefense Strategy. Doctor.

 STATEMENT OF DR. TARA O'TOOLE, DEPUTY DIRECTOR, JOHNS HOPKINS 
            CENTER FOR CIVILIAN BIODEFENSE STRATEGY

    Dr. O'Toole. Thank you, Madam Chairman. Well, as you noted, 
the Dark Winter scenario is very sobering, and I think it 
illuminates how a large epidemic would actually unfold. 
However, I want to affirm very clearly that there is much that 
we can and should do to mitigate the consequences of such an 
epidemic. Let me just review four points that come directly out 
of the Dark Winter exercise.
    First, after we finished, one of the participants, John 
White, said he was so unfamiliar with the issues involved in 
managing a contagious disease epidemic that it took him a good 
part of the exercise to wrap his mind around the questions, and 
as a consequence he said he was very tentative in his 
decisionmaking. I think that is likely to be the case for most 
people in government.
    Dark Winter's participants were very distinguished national 
security experts with tremendous government experience. I 
think, as Dr. Hamre suggested, it is very important that the 
Nation's leaders familiarize themselves with the questions that 
would come before you in the midst of a large epidemic. We can 
do a great deal to dispel the unfamiliarity and the strangeness 
and at least start working with common terms of reference. 
Education is actually the best inoculation against fear, and 
that goes for leaders as well as for members of the public.
    Second, Dark Winter illustrated that in an epidemic there 
are some critical commodities which, if you do not have them, 
you have very few options left. In Dark Winter, because we were 
dealing with smallpox, the critical commodity was smallpox 
vaccine. If you have sufficient vaccine, and if you can 
distribute it quickly to the people who need it--and those are 
big ifs--you can take smallpox off the table as a weapon of 
mass destruction.
    In other outbreaks you would have different needs for 
different kinds of vaccine and different drugs. We also have an 
enormous need for diagnostic technologies. Imagine the 
difference in the story associated with current anthrax cases 
if we could diagnose within an hour who was or was not infected 
with anthrax before they are symptomatic. Those technologies 
exist if we want to bring our science to bear on this problem 
and put them into commerce, but we need to think about the 
critical commodities that are necessary.
    Only 15 or so of the top 50 bioweapons agents, or likely 
bioweapons agents that the Defense Department worries about, 
have vaccines or drugs associated with them that we could use. 
We need a significant R&D program in this country for 
biodefense. Senator Nunn's suggestion about bringing the Soviet 
scientists with decades of experience into the fold is 
fascinating.
    The United States has absolutely extraordinary talent in 
biomedical, pharmaceutical, and biotechnology research fields, 
and we are not using it. The people in these fields are not now 
engaged in government work. We need to get them engaged.
    Third, we need to think about the public health and medical 
infrastructure. It does not matter how great your vaccine is, 
it does not matter how much Cipro you have if you cannot 
distribute it and you cannot take care of sick people. We have 
no elasticity, no surge capacity in our current medical and 
public health infrastructures. We can fix that.
    Finally, there is information flow. Senator Nunn said at 
one point in the exercise--this was when there was discussion 
about whether or not to federalize the National Guard because 
there was violence breaking out across state borders. One 
governor did not want to let potentially infected persons into 
his state.
    Senator Nunn said, ``listen, there is no way in the world 
that you can get 250 million Americans to do anything they do 
not want to do and that they do not think is sensible.'' That 
is true. The only way we are going to convince people that the 
public health recommendations being made by the government are 
sensible is by giving them enough information to make up their 
own minds. Information flow is very difficult in the midst of 
the confusion of a battle, whether it is an epidemic or a hot 
war overseas, but it is crucial, particularly when people think 
their families' lives are being affected.
    You have to give the public enough information so that they 
can make up their minds and say, ``yes, what the government is 
recommending sounds sensible.'' That was a real challenge in 
Dark Winter, because we had more uncertainties, more questions 
than we had answers. It is also the case now, but I think the 
challenge has to be faced, and we have to stand up to it and do 
better than we are doing now.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you. At this point, let me take the 
chair's privilege to recognize our chairman, Senator Levin, who 
has given us great guidance through this situation that we are 
currently experiencing, as well as his leadership on the Armed 
Services Committee. We will be conducting a full Armed Services 
Committee meeting at 2:00 this afternoon to discuss the 
specific role of the Department of Defense in protecting the 
homeland and combatting these new and emerging threats and the 
kind of reorganization that may or may not be necessary. 
Senator Levin, if you would like to make a few brief remarks, 
then we will get back to our panel.

                STATEMENT OF SENATOR CARL LEVIN

    Chairman Levin. Thank you very much, and let me first 
congratulate you, Senator Landrieu and Senator Roberts, for 
this emerging threats effort. Senator Warner, with my support, 
in the last Congress created this Emerging Threats and 
Capabilities Subcommittee, and you have done tremendous work 
with it. You have foreseen what the real threats are to this 
country in terms of the terrorist threats being very real 
threats, the shift in our thinking and resources which must 
take place as a result of the emerging threats, and the new 
threats we face.
    Many of us have seen this for many years, but the events of 
September 11 have clearly focused our attention on this. Your 
Dark Winter effort, may I say to each of you, but particularly 
to you, Sam--and Senator Nunn, I guess I should be formal----
    Senator Landrieu. President Nunn. [Laughter.]
    Chairman Levin.--has really been helpful in also 
accelerating the thinking and the thought processes which have 
to be changed if we are going to address the kind of threats 
which you focus on in Dark Winter.
    I would just like to make a couple of quick comments since 
I am not going to be able to stay for questions. We are in the 
middle of a conference. The reference to the Russian scientists 
it seems to me is a very vital and valuable one. Senator Nunn, 
with Senator Lugar, was instrumental in doing work with Russia 
in formulating the Nunn-Lugar program. This is a way of further 
utilizing Russian scientists and perhaps even Russian vaccines 
to increase the supply here, should the decision be made to 
vaccinate for smallpox.
    There is a huge talent pool, a huge capability pool there 
which Senator Nunn and Senator Lugar tapped earlier, when 
Senator Nunn was here, and now it seems to me it is available 
for our use for additional purposes, particularly in the 
biological area.
    Second, I would hope that you could address the question of 
whether or not you would recommend vaccinating all of our 
people should the vaccines be available. I have seen the film, 
and I remember your dilemma as to where you put the small 
amount of vaccine that you have. But would we be able to 
produce enough, in enough time to vaccinate everybody, should 
the decision be made to do so?
    I have actually had discussions with President Bush on that 
subject. It is not an easy decision, because there is a small 
death rate, but a death rate nonetheless from vaccinating 
people, and if it is one in 1,000, that means that for every 
million people you are going to be losing, I think, 100, if my 
math is correct. That means that for 100 million people, it is 
going to be 100 X 100, which I think is 10,000.
    Now, you can identify the more vulnerable parts of our 
population in terms of people who have had certain ailments and 
diseases and perhaps not vaccinate them, but nonetheless there 
is that risk. I hope you would comment on that issue when the 
question period comes around as to what you know about that. 
Assuming the vaccine is available, if you would utilize it for 
everybody, at least those who are not vulnerable, particularly.
    So I want to thank you, Madam Chairman, for your tremendous 
leadership. You, as Senator Roberts' partner, have done that 
both in the last Congress and this Congress, and they have 
really advanced that cause tremendously.
    Thank you.
    Senator Landrieu. Thank you, Mr. Chairman. Let us hear from 
Colonel Larsen for his remarks, and then we will get into our 
questions.

  STATEMENT OF COL. RANDALL J. LARSEN, USAF (RET.), DIRECTOR, 
             ANSER INSTITUTE FOR HOMELAND SECURITY

    Colonel Larsen. Thank you, Ma'am. I have some short 
remarks. I retired from active duty about 18 months ago, and I 
was the chairman of the Military Department at National War 
College. I spent the 5 years before that studying the future of 
warfare, specifically homeland security and biological warfare.
    Dr. O'Toole and I spent 6 months working together on Dark 
Winter, and I want to talk just briefly about the two most 
important lessons I got out of Dark Winter. As a military 
officer, I did not think I would ever sit here and say that 
public health infrastructure is nearly as important to national 
security as the Department of Defense is, but I truly believe 
that today. Our public health infrastructure is not what it 
needs to be today.
    Second, I think I have a better understanding of the fact 
that small nations and some non-state actors can seriously 
threaten this Nation. We see that today. In my opinion, their 
strategy is to attack our economy and not our people. To answer 
your earlier question, you asked what we think is the most 
likely next attack, and I think it is an attack on our 
agricultural system. It will have a tremendous impact on our 
economy.
    I am a little bit concerned that in a lot of the work that 
is being done everything is focused on consequence management. 
Well, this is a subcommittee of the Armed Services Committee. I 
think we need to spend a lot of time looking at deterring, 
preventing, and preempting this action. As we have seen, the 
only good thing we can do about Dark Winter is prevent it from 
happening in the first place, and that is why what we are doing 
in Afghanistan today is so very important.
    I think we need to understand that we are at war, and I 
think most Americans do right now. We need to understand that 
the purpose of a war is to build a better peace, and that means 
reestablishing deterrence, improving our prevention programs, 
and rethinking our policies on preemption.
    In the Cold War, preemption was almost a four-letter word, 
because it was linked to first use of nuclear weapons. I think 
we need to spend a lot of time thinking about preempting. If we 
have good intelligence that there is someone on the far side of 
the world that does not like the United States and is acting in 
a threatening way, we need to consider taking action first, 
instead of waiting for things like 11 September.
    Deterrence will be difficult, certainly not as easy as it 
was in the Cold War. We will not have 100 percent success. 
Therefore, we must improve our public health infrastructure. 
When deterrence fails, we must be capable of responding in a 
manner that denies the attackers from reaching their goals.
    Research and development is very important in the area of 
vaccines and antiviral drugs. Some have recommended a long-term 
goal of bug-to-drug in 24 hours. That almost sounds like 
science fiction, but I will tell you it is possible, and it is 
necessary in the future, because we are not going to see just 
the classic agents Dr. O'Toole was talking about in the future, 
and that is where most of my study is--out in the future.
    Ten years from now we will be faced with genetically 
engineered bioweapons that we have not seen before. We must be 
able, through our scientific power, to detect that and within 
24 hours come up with a treatment. That is where we need to be 
headed in the future.
    In the last 7 years, I have been working on a framework 
that applies to both your subcommittee and the Senate Armed 
Services Committee. When we talk about homeland security, it is 
more than just consequence management. It is a strategic cycle 
that begins with deterrence, prevention, preemption crisis 
management, consequence management, attribution, and 
retaliation. How we function today in consequence management, 
attribution, and retaliation will lead us back to establishing 
deterrence. We need to look at that strategic cycle. I hope 
that Secretary Ridge's authority will give him power over that 
entire cycle, and not just a small wedge in crisis and 
consequence management, sort of a super-FBI and super-FEMA.
    Those are the things that I would like to address today, 
and I am ready to answer your questions. Thank you.
    Senator Landrieu. Thank you, Colonel. We very much 
appreciate that, and particularly appreciate your focus on 
prevention, preemption, and detection, because while 
consequence management is something we are all engaged in at 
this particular time, I think the American public would be 
pleased if we would give some additional focus to the 
prevention and protection aspects of this, and so I thank you 
for that.
    It is now time for questions. I will begin and I will keep 
them short so that we all have an opportunity.
    Dr. O'Toole, you spoke about the Dark Winter exercise. In 
our current anthrax situation, it is clear that our local 
medical officials, doctors, nurses, and hospitals play a 
critical role, as we saw in the presentation and in your 
remarks, of identifying victims and controlling the spread of 
this disease.
    In your opinion, are we providing enough medical 
information, in the current anthrax crisis, to our local and 
medical officials, hospitals, and researchers? If not, how 
could we, and what specific suggestions might you have for us 
to do that?
    Dr. O'Toole. Well, Madam Chairman, I think we could do and 
need to do much better than we are doing now. Clinicians need 
explicit and detailed information about how anthrax presents 
itself, what the symptoms are, how you do the diagnostic tests 
that are called for, how specimens are collected, where they 
are to be sent, and so on and so forth.
    The New York City Department of Health put out some very 
useful materials to those ends, and the Center for Disease 
Control (CDC) put out some useful materials somewhat later, but 
the distribution systems of those health departments are not 
reaching physicians. We need to engage the American Medical 
Association, which is willing to step up to the plate. They 
have approached us and the government to see how they can help. 
They have the capacity to get information to all licensed 
physicians. Other professional societies such as the Infectious 
Disease Society of America are eager to help, but we need the 
CDC to release clear case histories of the patients who were 
infected and in particular those who died sometime ago.
    We need a much clearer articulation and understanding of, 
for example, the environmental sampling protocols that the CDC 
is using to detect where the anthrax has spread. Much more 
definitive, clear, and less contradictory information about how 
aerosolizable the anthrax is would have given us a better sense 
of the risk. It might have driven investigations in different 
directions. It is very difficult to find out how many cases are 
suspected on a given day.
    We need much clearer information, a lot more information on 
the details. I understand that some of this may be sensitive, 
because it is related to criminal investigations or national 
security matters. This is the time, I would suggest, 
particularly with this information that touches on clinical 
matters and decisions about who is at risk and who should be 
treated, this is the time to err on the side of telling people 
the truth. We need faster information, more information, and it 
needs to be targeted to the medical and public health 
community.
    Senator Landrieu. Thank you.
    Senator Nunn, earlier you made what I think was a very 
smart suggestion about some initiatives that could be taken in 
terms of new relationships, partnerships with Russia. The 
science and research that is involved could take us to a new 
level of prevention and protection, and I think that was an 
excellent comment. But you also sat through this Dark Winter 
exercise acting as the President of the United States managing 
the consequences of a biological attack.
    Would you just suggest, in your opinion, how you would 
propose that the Federal and state governments reach an 
understanding about this issue, or how best we could proceed 
between all that you learned and all that you know about what 
happened in Dark Winter. How could we better establish a 
relationship between the Federal, state, and local governments 
now as we deal with the anthrax situation that is unraveling 
here, as well as to help us in the event that other attacks are 
down the road?
    Senator Nunn. It is hard for me to give you a real 
prescription, since I am not sure what is being done right now 
in terms of state-Federal communication, but certainly the 
public health officials at the CDC need to be in touch with 
every state public health department.
    Second, the people at HHS and the leadership need to be in 
touch with the leadership of the health community, all the 
private organizations, the medical associations, and the 
pharmaceutical associations.
    Certainly we need to send a strong signal to the 
pharmaceutical associations and the biotechnology community 
from the Federal Government, that we would like for you to 
organize yourselves and have your own baseline inventories of 
all dangerous pathogens, and have your own best practices and 
your own standards.
    The nuclear industry has done this. It is not perfect, but 
it did it after Three Mile Island, and it did it worldwide 
after Chernobyl, so we have a world association of nuclear 
operators where it does peer reviews, where it looks at safety. 
We do not have anything like that, that I know of, in the 
pharmaceutical industry. Each company has their own thing, so I 
think all of those things need to happen in a partnership with 
Federal and state officials.
    Now as to the exact mechanism--health official to health 
official--certainly Federal health officials to all the private 
organizations, that would be another channel. Probably the 
Council of the Governors Association would be a good vehicle to 
have this go through, but I think the primary challenge now is 
that the Federal Government has to have its own communicators. 
I am not sure we have that right now.
    We must have people who can stand up on a daily basis and 
brief the American people so they can be told what makes sense 
for them to do, as Dr. O'Toole said, they can be told in a way 
that will convince them that the Federal Government knows what 
it is talking about. I am sure we are prepared for that right 
now. I blame no one, but I think this communication gap is 
huge.
    In addition to all of that, we have to plug into the World 
Health Organization, and we have to understand that the CDC has 
a role all over the world, and many times the way the CDC gets 
into a country where there may be an infectious disease and/or 
biological terrorism is through the World Health Organization.
    One of the things that the Nuclear Threat Initiative--in 
which we have a whole biological section--and I have two of our 
experts on it here today--one of the things we are doing is 
making a grant to the World Health Organization (WHO), because 
right now when there is an infectious disease that takes place 
in a third world country that does not have very strong 
resources, they have to have a fundraiser before they can send 
their people out to investigate it.
    Now, in a global society where planes are leaving Africa 
and Asia every day, where people are going back and forth, what 
happens as a consequence is the smallpox in Africa or ebola 
virus can come here very quickly. But the WHO has to go out and 
raise the money, so we gave them a grant and basically said, 
here is about $1/2 million. You take this money, go check the 
disease first and raise the money later to replace it--so it is 
supposed to be a revolving fund. This is down from the Federal 
Government, the state government, and the local government, and 
it also goes across borders and across oceans.
    Senator Landrieu. Thank you. We will try to have 5 minutes 
each.
    Senator Roberts.
    Senator Roberts. Colonel Larsen, thank you for mentioning 
agriculture, and I would term that as agroterrorism, or 
agricultural security. It is so easy to do with the 
introduction of pathogens on a crop. I am not talking about 
processed foods. There is a Senator from Kansas who has 
introduced a bill calling for the improvement of the port 
facilities. We have the research facilities in agriculture 
providing several hundred million dollars in research to come 
up with antidotes to these things, so thank you for bringing 
that up. That is going to be considered in this bioterrorism 
package that we consider next week, hopefully, in Congress.
    Senator Nunn, thank you for being Sam Nunn. I want to 
report to you, sir. We have spent a little over $5 billion for 
the Initiative for Proliferation Prevention. That is the 
acronym IPP. We have another one called nuclear cities, and 
then we have the Cooperative Threat Reduction program, very 
popularly called the Nunn-Lugar program, and accurately so.
    We on this subcommittee, through the help of staff and the 
House of Representatives, have called for transparency, 
international cooperation in terms of contribution access in 
regard to the secret cities of Russia, and also Russian 
payment. What a marvelous opportunity now, with an 
international campaign against terrorism, for President Putin 
and President Bush to sit down and do exactly what you have 
said. We have a little over $1 billion in the budget. It seems 
to me if we could take advantage of the very people you and I 
visited with, they are a real resource, and I applaud your 
effort.
    Senator Hutchinson had to leave, and he indicated, Dr. 
O'Toole, in the private session, when you have a low 
probability/high risk situation with smallpox, and we are 
making a full effort in trying to answer the question of how we 
are going to vaccinate everybody in America, yet in terms of 
anthrax we do not even have a vaccine without a lot of problems 
with FDA approval. What was your assessment of that? Would you 
please repeat that?
    Dr. O'Toole. Well, he asked me a question. I said I thought 
the current situation with the anthrax vaccine was basically 
illogical and indefensible. We need to be putting a lot more 
resources into developing a second generation anthrax vaccine. 
There is work underway, under the auspices of NIH and the U.S. 
Army Medical Research Institute of Infectious Diseases 
(USAMRIID) to develop a recombinant virus, a vaccine that would 
have few side effects. That work has limped along on a 
shoestring for years. It needs to be accelerated.
    I would also suggest at this point that we get some 
clarification on the amount of anthrax vaccine that is now 
available and whether or not it has met FDA standards. There 
may be nearer-term opportunities to use that vaccine, and we 
should have the facts on hand to know whether or not there is, 
indeed, any available.
    Senator Roberts. Senator Nunn, speaking for Dr. Hamre as 
well, to what extent has the executive branch been briefed on 
this exercise, when did you do it, and what was their reaction?
    Senator Nunn. I do not know the exact number of times. I 
have testified on Capitol Hill several times. I have met with 
some officials informally in the executive branch. John Hamre 
has met with them on a formal basis. Randy and Tara probably 
were there, but I know they have briefed Vice President Cheney, 
and I know they have briefed a number of people around the 
government and the executive branch.
    Their reaction was first one of some degree of alarm and, 
second, a realization that things had to be done. I would say 
they reacted very positively in terms of constructive efforts 
being undertaken. I believe what the Secretary of HHS has done 
in terms of vaccine is probably an outgrowth of this kind of 
discussion.
    Senator Roberts. So on the nine lessons learned that you 
have in your summary, they were very favorably disposed toward 
those nine, if we can get our act together here in Congress to 
get some bipartisan support for those changes?
    Senator Nunn. Right. I wish they had had a little more time 
to absorb the lessons we had learned on communication, because 
the communication part of it is just a key element here.
    Senator Roberts. Dr. Hamre has left, but Dr. O'Toole, he 
stressed exercises, exercises, exercises. You have been 
involved in all the Top-Off exercises, most especially the one 
in Denver, and my question is, would you consider greater 
involvement by the executive and the legislative branches? I 
think we need more exercises.
    Dr. O'Toole. Yes. I think exercises are extremely helpful. 
They certainly raise awareness. They can help you understand 
where your vulnerabilities are. To do them right requires a 
certain investment in resources at the front end, but they are, 
I think, very constructive and very effective and efficient 
ways of basically briefing the whole government.
    Senator Nunn. If I could add one point on that, it gets you 
to the point, if you sit through one of these things, where you 
basically have very little patience for bureaucratic obstacles, 
and anybody going through this would, whether it is at the 
Federal or state level.
    Senator Roberts. Is it true that one of your advisors, 
after about the 2-week time frame--and I know it did not take 2 
weeks--said, Mr. President, we have to bomb somebody?
    Senator Nunn. I think that was probably an expression of 
exasperation. It is eerie as to how similar it is right now to 
this anthrax situation.
    Senator Roberts. I have one very quick question. I know my 
time has expired. I apologize to my colleagues. Down the panel, 
should we begin preparations to inoculate all Americans against 
smallpox, or is that an overreaction? We will begin with 
Colonel Larsen and go down.
    Colonel Larsen. I think we need to build the stockpile, but 
based on the 1 in 5,000 reaction rate, I think we would have to 
seriously consider stockpiling it and developing logistics 
systems so that we could quickly get it out in case there were 
an attack, but the real expert on that would be Dr. O'Toole.
    Senator Nunn. I would punt and go to Dr. O'Toole. I would 
just say I think the medical people need to study this very 
carefully, but having the stockpile is an enormous protection. 
I believe if you have the stockpile and you distribute it to 
various parts of the country where it can be there early, and 
if you get medical personnel, everybody at the drugstore level, 
everybody aware of this so they can recognize it early and get 
this communication set up, you would probably not have to take 
the risk of inoculating everyone. You would have to measure 
that risk versus the risk of early detection.
    Senator Landrieu. Dr. O'Toole, did you want to say 
something on the record on that?
    Dr. O'Toole. I agree with Senator Nunn. I would not 
recommend smallpox vaccination in the absence of a clear 
threat. It is a very effective, powerful vaccine. It has a 
significant, in population-wide terms, incidence of side 
effects. Some of those side effects can be serious, and during 
the eradication campaign the most serious side effects were 
among so-called primary vaccinees, those receiving the vaccine 
for the first time. A very large proportion of our population 
would therefore be in that highest risk category, in addition 
to people who were immune-compromised because they are getting 
radiation therapy, or have undergone organ transplants, or have 
HIV/AIDS and so forth.
    I can go through the numbers with you, but it is not a good 
idea to simply vaccinate people for smallpox now in the absence 
of a clear threat. Were we to have information that an 
adversary had smallpox virus, that calculation might change, 
but right now we have much more urgent things we need to spend 
our money and our resources on, although it is fabulous and 
very important that we have the stockpile.
    Senator Landrieu. Thank you.
    Senator Carnahan.
    Senator Carnahan. Thank you, Chairman Landrieu. I want to 
thank you for your leadership on this subcommittee, as well as 
Senator Roberts for his very important and very early 
leadership as well, and to our panel for their substantive and 
straightforward responses to these questions.
    I cannot help but think of some words that Franklin 
Roosevelt spoke 60 years ago. He spoke of inevitable triumph at 
a time half of our Navy was at the bottom of the ocean. I think 
he realized then that we would ultimately triumph, that 
although we were unprepared we were undaunted, and that we 
would find a solution. It is the American way, and we will do 
that again, and certainly you have given us cause to feel that 
once again.
    I believe the National Guard must serve as the primary link 
between the Department of Defense and the emergency first 
responders in the event of a bioterrorist attack. Given your 
experience, Senator Nunn, in assessing the Dark Winter 
exercise, what do you believe are the primary functions of the 
National Guard in responding to a bioterrorist episode? Would 
you say that we are adequately equipped to help contain 
infected or quarantined areas, and could you also elaborate on 
some of the tensions that exist between Federal and state 
authorities regarding National Guard call-ups that appeared 
during the Dark Winter exercises?
    Senator Nunn. Good question. I believe that the Guard plays 
a very vital role, because they are on the local scene and they 
can be there quickly, and we have to make sure they can 
mobilize quickly in an emergency. I think they could help in 
any biological, chemical, or certainly nuclear kind of 
catastrophe, or any major hurricane or tornado or any of that, 
which we have already seen over and over again.
    They would help in being able to go in, if they had the 
right equipment, to a chemical or biological environment for 
investigative purposes or apprehension purposes but, as we have 
seen, in the biological area you are probably not going to know 
about it in time to really be there and apprehend someone who 
may have carried it out. It is very unlikely. It is more likely 
in the chemical kind of attack, so they would have a very 
important role to play.
    I would like to see the Guard become more medically 
capable, because when you go through an exercise like this you 
realize that you do not need guns right now. What you really 
need are doctors, nurses, and people to recognize it. You need 
people at the drugstore level, the vets, all of these people 
need to be trained. I think the Guard themselves could help 
train these people if they had their own beefed-up medical 
system.
    A lot of our medical resources, as I recall, are in the 
Guard anyway to be called up, so we could perhaps emphasize the 
medical part of the Guard role, but they would play a very 
important part in the final analysis in this awful scenario. I 
hope we will never have anything like this.
    We were not prepared with vaccine, so they would have had 
to play the role of helping isolate people and prevent them 
from crossing into other areas that had not had the disease, so 
that is the hardest role of all, but they would really have to 
be trained for that. As to when to use force, or whether to use 
force, that is an agonizing set of decisions.
    So they should play a real role, a big role, but I do think 
in the Nunn-Lugar-Domenici legislation, in all of the things we 
are doing with resources, we need to look back to the public 
health sector and realize that that really is the front line, 
because these are medical problems that have to have medical 
responses.
    Senator Carnahan. I am also interested in the role the 
media would play, and I address this to whichever one of you 
would like to respond.
    Our age of instant information has many benefits, but it 
also prevents some hazards. Television and radio provide a 
rapid way to communicate important information to the public, 
but media reports of bioterrorism incidents could also cause 
panic, and that would hinder our response. It could overwhelm 
our public health system and cripple our transportation 
network.
    What steps do you believe should be taken now to ensure 
that Government officials and the media work together in the 
event of a bioterrorism incident to communicate important 
information to the public?
    Colonel Larsen. I would like to address that for one 
moment. In every exercise I have developed or participated in 
or observed in the last 7 years in homeland security and 
biological warfare, the number one lesson learned has been the 
role of the media and responsible reporting by the media, where 
accuracy becomes more important than speed. We are having some 
problems with that in this current case, but it is a two-way 
street. The Government has to step out there and provide the 
information. Like you say, we live in a 24/7 news cycle.
    One of the lessons we learned in an exercise last January 
where there was a simulated plague attack in Chicago, was how 
important it was for the mayor to talk to the people, establish 
credibility, and to control their behavior. You just cannot 
quarantine a city. What are your rules of engagement? Do you 
tell the police or National Guard to shoot people leaving town? 
The best solution is to control them with information instead 
of with guns.
    We suggested that they get the top columnist from the 
Chicago Tribune, whoever the Mike Royko is of the day, whoever 
the number one personality is on TV, and say, at every meeting 
the mayor has, one of these people will sit on either side of 
the mayor, and when the mayor walks out to the microphone, 
which he should be doing about every 6 hours, those press 
people will be standing with him.
    That is kind of a new paradigm for how we do things. We do 
not allow press to sit in on National Security Council 
meetings, even though we did allow press observing President 
Nunn during Dark Winter, but the credibility of the spokesman 
providing the information that Tara has been talking about is a 
critical element in every exercise I have looked at in 7 years, 
and yet the question is, are we learning from those exercises?
    Senator Carnahan. Thank you, Madam Chairman.
    Senator Landrieu. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Madam Chairman. I want to thank 
you and Senator Roberts for your incredible leadership in this 
very important area. I also want to thank our witnesses for 
being here today.
    I found the Dark Winter scenario to be both chilling and 
eerily prescient, which I guess demonstrates why these kinds of 
exercises are so important.
    Dr. O'Toole, I would like you to evaluate our Nation's 
response to the recent anthrax attacks based on the four 
criteria that you listed: familiarity with issues, the 
availability of critical commodities, the adequacy of the 
infrastructure, and the effectiveness of the information flow.
    I am particularly interested in this because I do not think 
we have done as well as we could have in responding, 
particularly with information flow. I am so troubled by the 
case of the postal worker who went to the emergency room and 
was misdiagnosed with the flu, despite all the press reports of 
anthrax being in this area, and was sent home, and then 
ultimately returned to the emergency room the next day and 
died. I cannot help but wonder if we or public health officials 
had done a better job of disseminating information to those on 
the front lines, the emergency room nurse, the family doctor, 
whether that man's life might have been saved, because he might 
have received the necessary treatment early enough.
    So I would like you to evaluate our response on the four 
factors you have set forth.
    Dr. O'Toole. Well, the four factors were, familiarity with 
the facts, critical commodities, public health and medical 
response, and information flow, and there is good news and bad 
news in all of those arenas, I think. It might be easiest to 
just trace a case through and we can use one case as the 
paradigm for others.
    Not only is it important for the health care workers to 
know how anthrax presents itself and to be thinking that it 
might present. It is important for the American public to know 
that, too. The case that I think you are referring to was a 
postal worker. Well, by the time that postal worker became ill 
it was pretty well-known to public health people that people 
working with mail were at special risk for anthrax. Also in 
that risk category would be people who worked for media 
conglomerates or for Government.
    I think the bad news is, we had not properly prepared the 
people in that particular chain, either the worker himself or 
his family, or the health care workers, and the involved 
hospital, to suspect and recognize anthrax. On the other hand, 
I think it was quite remarkable in Florida that the first 
patient was correctly diagnosed, and that the lab got the 
diagnosis as quickly as it did. That is an example of how much 
of a difference preparation makes. That lab had just gone 
through CDC's bioterrorism preparedness training.
    I think that one of the aspects of why the anthrax did not 
get diagnosed has to do with the lack of elasticity or surge 
capacity in the medical infrastructure. Doctors are working 
flat-out on a normal day. They do not have time anymore, for 
example, to take occupational histories. You have to see, on 
average, a patient every 15 minutes.
    If you have been to a hospital here lately, you know how 
long it takes to get seen even if you are really sick. Trying 
to sort through people who have symptoms that are common and 
represent usually common and benign illnesses and look for this 
zebra among all of the hoofprints, is not a simple task.
    We have to build more capacity into the medical care 
system. We have run health care in this country for the past 
decade like a business. Well, there is no payer for disaster 
preparedness, and that is a problem. You also have a hard time 
training nurses and doctors in these unusual diseases because 
they do not have time to go get trained.
    A lot of what happened in the Nunn-Lugar training, for 
example, for cities and bioterrorism, did not meet its 
potential because we could not get people from the hospitals to 
the table to participate in the exercise. They were too busy. 
Hospital administrators did not have somebody else to put in 
the seat that was left vacant while people went and got trained 
for a day, or 2 days, or 3 days. That is a problem. There is no 
simple solution.
    The same thing is happening with the public health system. 
Public health responses to the anthrax in some cities have been 
terrific. I think Florida did a very good job dealing with a 
sudden onslaught of international media, while trying to figure 
out what was going on.
    One would have hoped that the public health department or 
the CDC would have gathered together all of the people who 
might have been affected in that building and told them what 
was known as it was known. As we saw, one of the employers 
thought it necessary to go out and get his own people tested on 
his own, and then we created another information stream. The 
CDC has to then run around and figure out where the results of 
those tests are and what they mean.
    Right now, the people in the public health system across 
the country at the state, city, and local levels are running 
about as fast as they can. They are dealing with thousands of 
anthrax hoaxes, so fire department hazmat teams are running out 
to pick up samples of everything from baby powder to tapioca.
    I heard the other day that the labs are overwhelmed with 
samples that they have to analyze, plus they are now going to 
start getting clinical samples as doctors become more aware 
that people may actually be presenting emergency departments 
with anthrax. The laboratory people are already working around 
the clock, 7 days a week. Most of them cannot be paid overtime 
because they are professionals. So you are taking people who 
are already basically working for a service cause, making much 
less than they could in other venues in this country, and 
asking them to work 7 days a week, and in most of these places 
nothing real has happened yet.
    Again, there is no excess capacity in the public health 
system. We have not invested in it. We have to bring more 
talent to the sector so that the people who are there can have 
a day off every 2 weeks or so, and we need to buy things like 
computers so they can sort and move information. Half of the 
local health departments in this country cannot connect to the 
internet. That is ridiculous.
    Senator Collins. I know my time has expired, but if you 
have further comments for the record on that I would welcome 
them. Colonel Larsen, I did not have the opportunity to ask you 
questions because my time expired, but I do hope that you will 
respond to a couple of questions for the record about the state 
of research on biochemical sensors, and also our response, or 
our ability to respond to genetically engineered organisms.
    Thank you.
    Senator Landrieu. Thank you, Senator, for those excellent 
questions.
    Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chair, and Senator 
Roberts. Thank you for this hearing. I am very proud of your 
leadership here and appreciate it very much. I thank Senator 
Nunn and the other witnesses and thanks for your characteristic 
leadership.
    This may have come up while I had to be out at another 
meeting, but have there been exercises similar to Dark Winter 
that focused on a chemical attack on the U.S., and if not, 
should there be?
    Colonel Larsen. During the Top-Off exercise in May 2000 
they did one in Portsmouth, New Hampshire, but all the 
exercises I have been involved in have been biological. I 
believe that there have been quite a few chemical exercises, 
and one of the problems is sharing that information. I just 
heard about a major smallpox exercise in San Diego, California, 
that the military bases were involved in, and it was just by 
accident that I heard about it. We need to have a place, a web 
site where we can share this information. There are a lot of 
valuable lessons out there.
    Senator Lieberman. So you would say we would benefit from 
some exercises simulating chemical attack? Would you agree, 
Sam?
    Senator Nunn. I would agree.
    Senator Lieberman. Let me ask you about a story that was in 
the paper today that does tie in, I believe, to what Senator 
Collins said at the end but did not have a chance to ask you, 
Colonel Larsen. There is a story that we have now found some 
chemical agents in the anthrax that seem to increase their 
probability of aerosolizing and staying in the air. I just 
wanted to invite you as experts in this to tell me what your 
reaction to that story is and what it suggests to us for a 
response.
    Colonel Larsen. Well, first of all I would like to know if 
it is true. I have heard a lot of things in the media.
    Senator Lieberman. You do not believe everything you read 
in the paper?
    Colonel Larsen. No. My great-grandfather told me about that 
a long time ago. But I saw a major TV network about 2 weeks ago 
where a reporter said, I have troubling news, and if you have 
troubling news just before air time you get to sit next to the 
anchorperson. He said, I have troubling news. The Ames strain 
is resistant to the vaccine.
    Now, that is a frightening thing to hear if you are just 
sitting out in Iowa somewhere and you hear that. First of all, 
it is false, and second of all, it is irrelevant. I mean, that 
is the strain we use to test the vaccine, and we do not use the 
vaccine on civilians right now, and it was just a poor story.
    So I read the story you mentioned this morning before I 
went to work, and I said, I wonder if it is true, but I have 
not heard Secretary Ridge come out and say this. It takes a 
while to do that testing.
    What you are talking about is that it is not that difficult 
to grow some anthrax. You can find it in many parts of the 
world. You put it in a microbrewery and you produce a lot of 
it, but it is not a weapon just because you have it in a Petri 
dish. You have to get it down to that small particle size. You 
have to have the right sporulation rate.
    Senator Lieberman. That takes a lot of effort, does it not?
    Colonel Larsen. Absolutely. That takes some high-tech 
capability, unfortunately not as high-tech as it did in the 
1960s. I have worked with Bill Patrick quite a bit. He produced 
very high quality weapons in the 1960s. That took superpower 
technology in the sixties.
    Today, the biotechnical revolution has made it easier, but 
I am not going to accept that story until I hear the folks from 
USAMRIID stand in front of a microphone and say that, but if it 
is, then that does start pointing more toward links toward 
state sponsorship.
    Senator Lieberman. Dr. O'Toole.
    Dr. O'Toole. Well, I cannot speak to the validity of what 
the papers reported, Senator, but I know what you are talking 
about. There are a number of characteristics that pertain to 
whether or not an anthrax sample would hang in the air long 
enough for it to be inhaled, whether it is the proper size to 
get down into your lower lung, where it might be absorbed into 
the bloodstream, and how far it is going to go before it thunks 
to the ground or gets stuck on a surface.
    The additives they were talking about diminish the 
electrostatic forces on the particles so that they do not clump 
together, but instead would stay suspended in the air and go 
long distances.
    Now, the reason I am very interested in that as a physician 
is because that would completely change my thinking about who 
is at risk in a room where an envelope has passed through. My 
question is, did the CDC know it, and if so, when, and if not, 
why not, because that is information that is extremely relevant 
to deciding what the protocols for protection of potentially 
exposed people ought to be.
    Senator Landrieu. Senator, can I follow up on one thing? I 
do not mean to interrupt you, but at this point I think it is 
very important, and I was asking Senator Roberts if he could 
recommend discussing this a little further. Could you describe 
for people that are lay at this, all of us who are not doctors, 
the size particles that could be dangerous, to just try to 
describe in more detail the airborne particles to give us a 
sense of this?
    Dr. O'Toole. Particles that are between one and five 
microns or so, which is very small, invisible particles, are 
the most dangerous.
    Senator Landrieu. These are microscopic?
    Dr. O'Toole. Yes, microscopic. The reason is that large 
particles are going to get stuck in what is called your 
mucucilliary escalator. They are going to get stuck in the 
upper airways and they are going to be coughed out. They are 
not going to get into your lower lung where they can be 
absorbed into the bloodstream.
    These smaller particles, however, will get into the deep 
lung and be taken up by cells and moved into the bloodstream. 
Anthrax, when it sits in the lower lung, is transported to the 
lymph nodes in your chest, and it is at that point when the 
spores start to divide that they get into the cells and cause 
problems.
    The question is, was the anthrax airborne long enough for 
anybody outside where the envelope was opened to be at risk? Is 
it just regular anthrax powder, small micron but no additives 
that would change the electrostatic forces, so maybe if you 
breathed in, or if it went up in the air when the envelope was 
opened or something like that, one or two people in the 
immediate vicinity would breathe it in. The question is, was 
the powder of such a kind that it could actually travel long 
distances and remain suspended in the air, and hence be 
available for aspiration, in addition to being milled to that 
small size?
    Senator Lieberman. The question about when did the CDC know 
about this, and did they, is a relevant question, because my 
feeling, and I do not know if my colleagues feel it, having 
gone through this anthrax scare, or reality on the Hill, some 
of the things we were told with great certainty last week do 
not seem to be quite as relevant or factual this week.
    For instance, the impression was that you pretty much had 
to be in Senator Daschle's office. We were testing everybody, 
but you had to be there. You might take in some spores, but you 
really had to have about 10,000 inside you to be infected, and 
if you were infected, the antibiotic would treat it, or one of 
several antibiotics would treat it.
    So now in the aftermath of the death of the two postal 
workers, and of course we do not know exactly, but we presume 
that they were not in the presence of an open package that was 
opened with spores flying out, and the answers that we are 
getting now seem different than what happened, or what we got 
last week. I do not mean anybody was misleading us. I think we 
are, as your exercise suggested, in a different setting. I 
think the experts are maybe learning as we go along, because we 
have not had much experience with anthrax in quite a while, 
have we?
    Dr. O'Toole. I think that is absolutely true. We are on the 
edge of what we know, which is one of the reasons why it is 
very important to have the experts who know everything that is 
known in the game, and second, I think we are learning as we go 
along, so that the available data changes.
    The critical question I have is, is this data being sorted 
appropriately by people who know what they are doing at the 
critical levels where decisions are being made? It may be that 
the CDC did not have any of this information. I would guess 
that information is going through different data streams, that 
those analyses are not being done by the CDC, and maybe they 
just are not coming together rapidly enough. I do not know.
    It is not easy to put all of this together, but I think, I 
am virtually certain, I cannot imagine that it would be 
otherwise, that the CDC made the decisions about who was at 
risk in the postal office in good faith, using their best 
judgment. I assume that they were assuming that it was not 
weapons-grade anthrax, since that was pulled back from the 
papers, and they assumed it was fairly crudely milled powder 
that would not go anywhere.
    Senator Lieberman. Thank you. My time is up.
    Senator Landrieu. I am going to recognize Senator Dayton, 
but Senator Roberts has one brief follow-up on that.
    Senator Roberts. I do not know if I am ever brief enough, 
and I apologize to Senator Dayton, but as a follow-up to Joe's 
comment, it gets to the issue that the Colonel has talked about 
in regards to credibility. We all saw a great deal of press 
last week in regards to the decision by the House to adjourn 
and the Senate to stay and vote on the milcon bill, even though 
our offices were closed.
    As I recall, Dick Gephardt indicated that it was weapons-
grade anthrax, there was a plume, and there was some 
contamination in the ventilation system, while at the same time 
we were being briefed in the Senate that this was a ``garden-
variety'' type of anthrax, very susceptible in regards to 
treatment, there was no contamination in the ventilation, and 
it certainly was not weapons-grade.
    We are now learning that Mr. Gephardt was right. I do not 
know if he knew he was right at that particular time. That is 
probably not a nice thing to say, the way this is evolving, but 
he was, and of all things we had the testing going on of 1,400 
people or more in the very building where there was exposure, 
and then that building is open for 3 days, now it is closed for 
a week, and it will probably be next session before we open it 
up to the degree that everybody is satisfied where we are.
    Could you again go over what you said: you would change 
your view from the standpoint of a person who was in that 
office, opened that envelope, they are susceptible, they could 
be exposed, as opposed to this new kind of view that was in the 
press? I think that is exceedingly important, and gets to the 
issue of credibility and why, when I said it--I guess I said it 
in the closed session, that the Hart refugees, I mean, we had 
four people there and two said you would go in and two said no, 
I would not do that.
    Now, we cannot do this. I mean, it gets back to the issue 
that Senator Nunn pointed out, that when he was acting as 
President, he had to tell the American people what was going on 
and be straight with them. Could you just speculate a little on 
that, because I think it is very important as to where we stand 
right now in the United States Senate.
    Dr. O'Toole. Well, Senator, I just want to make clear that 
I am now speculating on the basis of hindsight, so I am on two 
very unsteady legs of the stool, but I think that it is 
possible that the anthrax that came to the post office first 
may have been more than one letter. Second, it may have been of 
higher grade, more highly aerosolizable powder that could waft 
long distances and infect more people.
    I think the assumption that a sealed envelope posed no risk 
to anyone who had been in the presence of the envelope prior to 
it being opened may have been a wrong assumption based upon 
what we know now, but did not know at the time when they were 
investigating the congressional office building exposures, 
hence the new discovery of the elevator being contaminated. I 
think one would have a different sense of who was at risk and 
what ought to be tested as these assumptions shift.
    If you think it is not weapons-grade anthrax, that it is 
not going to go anywhere in the post office, then most at risk 
is that person who opens the envelope, and that is about it. 
You do one set of activities. If you think it is weapons-grade 
anthrax, and it could leak out of the envelope because it is so 
finely milled, or waft around once the envelope is opened, or 
maybe even the sorting machinery that they use at the post 
office, which is quite vigorous, could cause some of these 
spores to be released, all of these facts would change, again, 
your assumptions and your protocols for who to test and why.
    I think the American people are quite understanding of how 
our knowledge is evolving, and they would be willing to listen 
to experts saying, look this is what we thought then and that 
is why we did it, this is what we know now, and this is why we 
are changing our protocol. But we are not hearing any of this.
    We are not hearing enough from experts who are credible and 
who are in a position to know what is going on, telling us why 
the decisions are being made, or what the basis of those 
decisions are. Nor are we getting, as Senator Nunn suggested, a 
kind of constant and rigorous update of what we are learning 
and how the facts are changing--and the facts are going to 
change.
    I want to be fair here. The CDC is working its heart out at 
this moment. The CDC is not big enough and does not have the 
resources to take care of all of the things it has to do right 
now, either. We have to do the best we can with what we have.
    But I think again it all comes down to information flow. As 
Senator Nunn kept saying, if you are going to maintain 
credibility, and you do not know what is going on, you had 
better tell the truth, and the whole truth, when you know it.
    Senator Landrieu. Thank you.
    Senator Dayton, and then Senator Cleland, and we are going 
to try to wrap up in the next 10 minutes.
    Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman, and like the 
others I want to thank you and the ranking member for your 
leadership here. I want to thank all of our participants for 
really one of the most meaningful hearings I have participated 
in. I started in January, and I think you maybe want to change 
the name of the subcommittee from Emerging Threats to Emerged 
Threats, because certainly what you have been dealing with for 
the past few years has come to pass. We talk about Dark Winter 
simulation exercises. We are in the midst of Dark Fall here in 
the United States, and these are not simulations.
    The enormity, the complexity, and the difficulty of what we 
are addressing here I think is apparent to all of us, based on 
current and recent experience. I think it was General 
Eisenhower, then President Eisenhower who said that any eighth 
grade student of history could make better battlefield 
decisions in hindsight than the best general could make at that 
point in time. But the reality is, when you are in the midst of 
the situation you do not have enough information, you do not 
know what you know, you do not know what you do not know, you 
do not know what you can rely on and not rely on, and you are a 
new President of the United States. Do you tell people or not?
    I think we should be critical here of what is going on, 
because we can learn from the mistakes that have been made. But 
on the other hand, Senator Lieberman's comment--and I read that 
story too--points out that if that information is correct, and 
we do not know today whether it is correct or not, we do not 
know whether the press in hindsight will be proven to have been 
responsible or irresponsible with that story, then the people 
at the time either made the right decision or the wrong 
decision, but they thought they made the right decision last 
week.
    Different people with the same information may differ in 
their decisions, and because everybody in Congress is still 
alive today, was it the right decision or the wrong decision? 
We stayed, they went home. If we were all dead today or 
symptomatic, and they were not, we would have evidence. We do 
not know if it is the same letter or if it is another letter. 
We do not know what the connection is, but do we shut down the 
entire U.S. Postal Service today?
    I mean, it is easy to sit here and say yes, you should take 
precautions but err on the side of caution, but by golly, do 
not shut down the airline system, do not shut down the U.S. 
Postal Service, do not shut down the United States Capitol. We 
have to be fair to the people who are on the cusp and dealing 
with this, who are also trying to make the decisions, who do 
not want to be second-guessed and seen wrong in hindsight.
    Frankly, if they have the information, it is like Mayor 
Giuliani, you barely have enough time. I think that was an 
excellent example, Colonel, of another leadership under crisis, 
to take the time and step forward and say what you do not know 
and what you do know moment to moment, because they are trying 
to figure out how to, as they say, make literally life and 
death decisions.
    I think if you look back to September 11 you can say, well, 
in hindsight, first of all, how could we have four airplanes--I 
mean, we spend $350 billion on national defense, and we are 
defenseless. I sat here for 8 months, and I do not know, 
Senator Nunn, whether you sat for how many years of these 
briefings in top secret chambers, and nobody hypothesized to me 
that they were going to take four planes and direct them at the 
World Trade Center and the Capitol and the White House.
    So we can say with hindsight, why did the air traffic 
controllers not recognize that when two planes suddenly dropped 
off the radar screen, my goodness, of course we should have 
known that they were headed toward the World Trade Center, or 
after the first one exploded, by golly, they certainly should 
have known about the second one, or even after the two exploded 
we had 35 minutes before the third one crashed into the 
Pentagon. We did not have an intercept plane up in the air with 
all the preparedness we thought we had. In an hour and 10 
minutes after those two we did not have an intercept plane up.
    We had, thank God--thank the departed passengers on that 
airplane who took matters into their own hands and saved, I 
believe, either the Capitol or the White House from at least 
physical destruction and probably greater loss of life.
    So again, in hindsight, why didn't we know those things? We 
spend billions of dollars in preparedness, and we can say, I 
agree with you, doctor, that we should be preparing more for 
smallpox vaccination, but the President of the United States 
has to make the decision, do you vaccinate everybody knowing 
some people are going to die. Do you not vaccinate people 
knowing, based on your simulation, that if there is a terrorist 
attack, using that, no matter what you do you are going to have 
probably more people die or not die, or what-have-you.
    It is like mutually assured destruction. If you do not have 
it, then you are right. If you do have it, then suddenly lots 
of people die.
    So I think we should recognize, again, the enormous 
complexity and difficulty of this, and the next time it is a 
food attack, or the next time it is a chemical attack, or the 
next time it is another biological attack, because the 
terrorists know if we have inoculated everybody from smallpox, 
then, well, let's not use smallpox, let's use the next thing, 
or the next thing.
    I guess this is a long-winded speech, but if I have time 
for a question----
    Senator Landrieu. I am not sure. [Laughter.]
    Senator Dayton. Allow me two things. First, is there 
anything here that does not require spending more money? We 
passed a tax bill last year that wiped out our surplus, and 
here we are back again saying we do not have enough funds for 
public health, which I would agree we do not have enough on a 
whole lot of things, and second, do we need--we talked about 
the four-letter word.
    Do we need to spend more public dollars to provide the 
public more protection from the things here we recognize we are 
not prepared for? Second, Senator Nunn, because you have been 
such a leader in this, through the years, does this suggest--
and this is a leading question--as you and the Colonel both 
pointed out--that maybe we ought to revisit the notion that we 
can withdraw from all of these treaties and attempt to forge 
these treaties and involve international cooperation on these 
things we now see as such great threats, and not just turn our 
back on all of these other things out there until it is too 
late?
    Senator Landrieu. Senator Dayton has successfully put in a 
1/2 hour of questions and comments in 5 minutes, he gets the 
award.
    Senator Dayton. When you are hundredth in seniority and you 
have to wait an hour and a half to open your mouth, you learn 
how to do these tricks. [Laughter.]
    Senator Lieberman. The last person I saw do that that well 
was Bill Cohen, and he went on to be Secretary of Defense. 
[Laughter.]
    Senator Roberts. You can buy more Cipro with the Tax Relief 
Act. [Laughter.]
    Colonel Larsen. I do have a very short answer. I cannot 
imagine this Nation ever being in a position where it cannot 
spend enough money to defend itself. I cannot imagine us not 
having enough money to defend ourselves. You say we do not have 
enough. I do not believe that. I think we do. We have to spend 
it wisely.
    Information systems are one of the most important things. 
Last year we spent $30 billion on intelligence. As a former 
operator in the military, intelligence is information that 
comes in to leaders so they can make timely decisions. That is 
what President Nunn did not have in Dark Winter. That is what 
our top leadership does not have today, because we cannot get 
that information from hospitals. You cannot ask what is going 
on today in emergency rooms across this country. That 
information is not available to our key decisionmakers.
    Now, if we spend $30 billion on intelligence for national 
security, why are we not spending money to provide senior 
leadership at the state and Federal levels to have that 
information so President Bush would not be in that position?
    Senator Landrieu. Senator Cleland.
    Senator Dayton. I would just interject, I think President 
Bush is asking himself about all that money spent in the middle 
of September 11.
    Senator Cleland. Madam Chairman, I hope this hearing can be 
reconvened at another time, and we will have more opportunity 
to ask our questions. I think we have only scratched the 
surface here. Our panelists have done a great job.
    I was reading over the weekend about the attack on Pearl 
Harbor, and something came to my attention. A paragraph jumped 
out that really encapsulates what we are going through right 
now. It said, Roosevelt perhaps should have known the attack 
was coming but did not. The best explanation of the failure is 
the one argued vigorously by Roberta Wohlstetter in her book, 
Pearl Harbor, Warning and Decision: ``Conclusion: Everything we 
needed to know was reaching American hands, perhaps, but it was 
not reaching American estimators specifically charged with 
weighing it all, writing it up as finished intelligence, and 
putting it in front of policymakers with a heads-up loud and 
clear. The result, secrets jealously guarded by FBI, Army, 
Navy, and State Department bureaucrats, especially from one 
another, while commanders in Hawaii were wondering where the 
Japanese Navy had gone.''
    In so many ways, what I see today as the analysis of these 
efforts, these exercises, some of those phrases jump out at 
me--fragmented, underfunded public health system at the local 
and state levels, insufficient information available to 
decisionmakers, health system quickly overwhelmed, it is 
unclear who is in charge, those kinds of things--and Senator 
Nunn, your incredible comment that as President, acting in that 
scenario, you got very impatient with bureaucracy. I think it 
is fascinating.
    I went down to the CDC last Friday. I went through the 
whole drill with Jeff Koplan, head of the CDC, and we started 
off with the Florida case. Interestingly enough, it was picked 
up by a doctor who said, well, let me just try something here. 
He phoned the state health people in Jacksonville and an 
epidemiologist there who had just gotten through training at 
the CDC on anthrax picked it up quickly. That is how we got on 
top of the Florida case.
    But the problem was that the CDC was criticized for not 
getting out information. I asked Dr. Koplan about that. He said 
the FBI muzzled them because the moment it became known as 
anthrax it became a ``crime scene,'' so the FBI took over. It 
was the same thing with Senator Daschle's office here--it 
became a crime scene, so all of a sudden we have this vital 
aspect of leadership, credibility, communication to the public, 
muzzled.
    Interestingly enough, I understand from the New York Times 
article today and from the briefing last week that this sample 
here in Senator Daschle's office went to Fort Detrick, 
Maryland, to an Army operation, not to the CDC, and they were 
both communicating with the FBI, but not with each other, and 
so apparently the CDC did not know about the seriousness of the 
situation at the postal operation out here until much later. 
Now we all know about the seriousness of that and the Hart 
building.
    I mean, we are all just beginning to find out here, it 
seems to me, that like Senator Nunn has said, somebody 
somewhere ought to be given the responsibility of giving a 
briefing every day to all of us and the American people as to 
where we stand. I think that it ought to be the CDC, and there 
ought to be a clearinghouse for that kind of information. I 
think they are the best in the country to handle it.
    But you cannot farm it out to one agency and then another 
agency, and this lab and then that lab, and then all of a 
sudden have the FBI say, well, you cannot talk to one another, 
it is all a crime scene, you cannot communicate, it is national 
security. So I think we have a real problem here. I think we 
are running up against the problem that Senator Nunn ran up 
against in the Dark Winter exercise, and that we ran up against 
in Pearl Harbor--that people, as Dr. Hamre said a while ago, do 
not know each other and they do not communicate with each 
other.
    That is, as you say, Dr. O'Toole, fixable. But how do we 
fix it? I would like to ask each of you, if you agree with the 
recommendation of the Hart-Rudman Commission that looked at 
this whole question of our defense system for 2 years and 
concluded a year ago that we needed an entire agency of 
homeland defense to coordinate and communicate with the 47 
different agencies of the Federal Government that have a hand 
in this homeland defense issue, and that homeland defense 
agency, instead of a czar in terms of homeland defense. We had 
a drug czar and the drug war is still going on. I am not sure a 
czar for anything is going to be very effective, but do we need 
an agency, as was recommended by that task force, that would 
have a budget and would have troops that could be commanded, 
and where there would be coordination and cooperation at least 
within the agency in terms of the 47 different agencies we now 
have in terms of homeland defense? Colonel Larsen, have you 
come to any conclusion on that?
    Colonel Larsen. Yes, we need that, but I do not want to see 
it created in the next 2 months, because then we will be stuck 
with something for three generations that we probably did not 
get right. I think, if you did it quickly, you are going to get 
the Department of Defense in about 1975. I would like to see an 
agency that is going to look like something 20 years after 
Goldwater-Nichols.
    I think Secretary Ridge could make some quick changes that 
improve communications, which, by the way, do not cost a lot of 
money. As Peggy Hamburg said, we should not be exchanging 
business cards on the first day of a crisis. We have to be 
improving those communications, and not just at the Federal, 
state, local, and county levels, but I think we need to set up 
a separate organization to start looking at what we need in the 
long-term.
    Remember, we started World War II--when you talked about 
Pearl Harbor, we did not have a Department of Defense, a 
Chairman of the Joints Chiefs, we did not even have a National 
Security Council. We did not create them overnight. We fought 
the war, we learned some lessons, and then we created them in 
1947. I think that is the model that we should look at, but I 
want to see it be a post Goldwater-Nichols sort of model that 
is going to work better for the Nation.
    So let us do it, but let us not rush.
    Senator Nunn. I would agree with not rushing. I think that 
there are two things that are indispensable if the new director 
of homeland security is going to be effective. First, is access 
to the President, and I think Governor Ridge has that. How long 
he will have it, whether he will have it a year from now, that 
is a different matter.
    Second, he has to have some budget authority. He has to be 
able to shift dollars, and he should not have to go in and ask 
the President every time he does that, because sooner or later 
the President is going to be tired of him coming in and say, 
``Tom, do you want me to overrule the CIA today, or the 
Department of Defense, or HHS? Who is it you want me to call up 
today and overrule?'' At some point that happens, maybe 6 
months from now. It will not happen in the first few months, 
but those are the two indispensable things. The problem with 
the czar is, they do not have both of those ingredients.
    The problem with an agency is--and I think you do have to 
think about it, as Randy said--it would not have the Department 
of Defense in it, it would not have the intelligence in it, it 
would not have HHS in it, so if you have an agency, it may have 
the Coast Guard, Border Patrol, INS, and so forth. Those are 
important agencies, but those are not the key players here, so 
I am not sure that an agency solves this problem.
    I go back to budget authority and access, he has to have 
that. Maybe you put him over in OMB and give him an OMB shot on 
a temporary basis, so he is not doing the process side of 
scrubbing the budget at OMB, but he is feeding information 
directly from OMB to the President on how these budgets are 
effective, and that would be stronger than certification.
    Senator Landrieu. We are going to have to wrap up. Senator 
Dayton, you are going to have to give your award to Senator 
Cleland.
    Senator Dayton. I was taking notes.
    Senator Landrieu. Those were excellent questions. We are 
going to try to wrap up. Senator Lieberman has one more brief 
question, Senator Roberts has one more brief question, and then 
we are going to try to close.
    Senator Lieberman. Thanks, Madam Chairman. An urgent 
question comes to mind. This appears to me to be urgent. As I 
think about the lessons learned from the Dark Winter exercise, 
one of the most pressing problems facing the President and the 
Nation was the absence of adequate supplies of the vaccine for 
smallpox, which you were considering in Dark Winter.
    Here we are now, we have now had this series of anthrax 
attacks. I heard you say that when asked what you think the 
greatest biological threat to the United States is in the near-
term, your answer was anthrax, and perhaps more widely 
distributed. In the meantime, we do not have a vaccine because 
of the problem at one facility producing it with the FDA, and 
this is the same facility that produced vaccine that we have 
given to, I think, more than a million of our men and women in 
uniform.
    So my question is, should we be doing something urgently to 
produce more vaccine to counteract anthrax? Should we be 
licensing other facilities to do it? In other words, if you 
think the greatest near-term danger we have biologically is 
from more anthrax, should we not be trying to protect the 
American people from it right now by producing and distributing 
more of the vaccine?
    Dr. O'Toole. Yes. I think there are a number of science 
questions that deserve fairly urgent attention. Part of the 
problem right now that Hart-Rudman and others identified is 
that our expertise is distributed over many agencies. We have 
biodefense experts in the Army, we have biodefense experts at 
USAMRIID, we have a few at NIH, we have some at the CDC, we 
have a lot more actually in the private sector. They are not 
coming together anywhere in the Government.
    There is not a strategic R&D plan for biodefense, and we 
need one, we need one urgently. I do not know if that is 
something that is a hybrid of an HHS-DOD project. I would think 
that would be my first guess, because of where the expertise 
and the capability are. One of our top priorities right now 
should be to decide where our R&D investments are most needed 
and most likely to yield fruit.
    Senator Lieberman. What is the best way to produce more 
anthrax vaccine?
    Dr. O'Toole. I think we need to find out how much we have, 
whether it is good to go, how we could get more of the current 
vaccine on an urgent basis, and then I think we need to look 
into the human recombinant vaccine that is in the works and see 
how fast we can get that.
    Senator Lieberman. Thank you.
    Senator Landrieu. I want to thank the members of this 
committee for their excellent questions. The preparation of 
this hearing was not easy, because we are without offices, fax 
machines, phones, and computers. In light of that, I just 
cannot thank you all enough.
    Let me make three brief announcements. There is a CIA/FBI 
classified briefing at 12:30 that started for all members of 
the Senate. There is an additional briefing at 2:30, a members-
only meeting in S-211 for the Hart refugees, and then probably 
around 3:10 there is going to be a vote on the antiterrorism 
bill on the floor.
    Senator Roberts, I am going to recognize you for a brief 
observation, then I am going to conclude.
    Senator Roberts. The chairman indicated to me that I am 
supposed to be positive, that we want to end this on a positive 
note. I want to thank you and all the witnesses for taking your 
valuable time and your commitment to go through not only Dark 
Winter but other exercises as well.
    I remember the Urban Warrior exercise with the marines at 
Monterey. We also have to coordinate with DOD. That was a very 
fine exercise, by the way, and I think we need more exercises, 
or we are not going to learn. I think we have made some 
progress.
    I am not sure we need an agency right away. I will tell 
Senator Cleland we are not at 40 agencies, we are now up to 60 
that allegedly have jurisdiction. As this continues to move, 
why, more and more people say, ``Gee, that is in my patch.'' 
That is not necessarily bad, but I do not know how you budget 
with 60 agencies, and one individual like Secretary Ridge. I do 
not know what you do with statutory authority when you are 
treading on all of that turf, but we have named Secretary 
Ridge, which was one of the big recommendations of all of the 
commissions and all of the people that testified.
    Remember the Appropriations Committee, the Intelligence 
Committee, and the Armed Services Committee last July invited 
the 40 agencies to come up and asked them ``what is your 
mission, what do you really do, and who is in charge?'' I will 
never forget at the end of it where everybody said they were in 
charge, and they were doing fine, thank you very much.
    We had the sheriff of Arapaho County from Colorado who 
said, well, boys, it is going to take you Feds about 48 hours 
to get out to Colorado. In the meantime, I want to tell you who 
is in charge. I am, because if I am not, I will not get 
reelected, and the heros of New York and Washington who were 
the first responders certainly made that very clear.
    I think we are making some progress. It is a tough deal, 
but I want to really credit you for helping us go in the right 
direction.
    There has to be one other thing, if I could stop to think 
of it here, that--Presidential Decision Directive (PPD)-62 at 
one time I thought maybe DOD should be in charge of that, but 
they declared the Justice Department in charge, and everybody 
else folds in, depending on whether it is law enforcement and 
the crime scene, or crisis management. I do not know if we need 
to take a look at that again or not, but that might be a 
suggestion.
    Thank you for coming. I think we are making progress. This 
will not stand. We are going to whip this thing.
    Senator Landrieu. Because the issue as to whether this is a 
crime scene or a battleground is an important component.
    I thank you all for your great statements, and thank the 
panelists for being here.
    Senator Nunn. Could I say one more thing in, I promise you, 
30 seconds.
    In spite of the challenges, we have lost our 
invulnerability in this country, but we also lost our 
complacency. I have no doubt that we have the best tools any 
generation of Americans has ever had in history to face these 
problems, and we have world support. If you look at the 
economy, at the security, at the health of this country, we are 
blessed as a generation.
    We have the best security, economy, and overall health in 
this country of any generation of Americans, so I hope our 
young people will recognize that, and that we do not have a 
Holocaust hanging over us, an all-out war escalating between 
the Soviet Union and the United States that we have had for the 
last 50 years. We have Russia now helping us, we have China 
helping us, we have the world helping us, so I think we ought 
to be upbeat.
    Senator Landrieu. Thank you, Senator. Well said.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
    1. Senator Levin. Senator Nunn and Dr. Hamre, what are the one or 
two most important lessons you learned from your participation in this 
exercise regarding the role of the Department of Defense in managing 
bioterrorist incidents and the Department's preparedness?
    Senator Nunn. The most important lessons learned from Dark Winter 
for the role of the Department of Defense in managing bioterrorist 
incidents are as follows:
    First, we need to think very carefully about how we are going to 
manage assets like the National Guard in the context of an intentional, 
large-scale epidemic. Governors will rightfully assert their interests 
in controlling state responses, and we need to put measures into effect 
that will ensure close coordination and communication between the 
highest levels of the Federal Government and the local and state 
officials who have the incredibly tough job of managing events at 
ground zero. Having clear communication strategies worked out ahead of 
time will be crucial to maintaining law and order, as will reviewing 
the relevant portions of the Federal Code, so that everyone knows where 
their statutory authority begins and ends. 
    The second lesson with respect to DOD has to do with competing 
priorities at home and abroad for military action and readiness. In the 
context of an outbreak, the military may demand that resources be put 
aside to ensure the health of its members before that of the general 
public. This is a difficult choice to make, but in the exercise we 
decided we would vaccinate first responders on the front lines, and not 
give the military priority, other than the troops involved in managing 
the epidemic domestically. It is important to realize that the 
potential for competing interests between the public and the military 
will always be there, particularly given a situation like the one we're 
facing now in Afghanistan. So we need to take steps now to address 
these competing interests in a rational, forthright manner, so that if 
the day comes, we will have our priorities straight and be able to take 
quick action.
    Dr. Hamre. One of the key lessons learned from the Dark Winter 
exercise was that health security is a national security issue 
requiring considerable coordination between medical and public health 
officials and law enforcement and national security officials. While 
the exercise did not focus on the specific role of the Department of 
Defense, I believe it's fair to say that the senior decisionmakers in 
Dark Winter from the national security community were largely 
unfamiliar with the character of bioterrorist attacks, available policy 
options, or their consequences. Many of them struggled to find 
analogous professional experiences to guide them in determining 
appropriate responses to events in the exercise. This reflects both the 
new understanding about public health as a security matter and, 
moreover, the need for extensive exercises in the future to improve 
decisionmakers' familiarity and understanding of bioterrorist 
incidents, their consequences, and how to manage them.
    A second important lesson regarding national security and a 
bioterrorist attack is that key decisions and their implications were 
dependent on understanding the pathology of disease, on public health 
strategies, and the possible mechanisms to care for large numbers of 
sick people--issues not typically briefed or studied in the national 
security or defense community. Following a bioterrorist attack, 
leaders' key decisions would depend on data and expertise from medical 
and public health sectors. The type of information that leaders 
required for decisionmaking in Dark Winter and for assessing 
situational awareness were primarily medical and public health 
information. The lack of such information reflects the fact that few 
systems exist for rapid flow of this type of information in the medical 
and public health sectors in the U.S.

    2. Senator Levin. Senator Nunn and Dr. Hamre, last week, Secretary 
Thompson announced a series of proposals to improve the Government's 
capability to respond to bioterrorist events, including efforts on 
vaccines and medicines. Based on your work on Dark Winter, do you 
believe these measures are appropriate and adequate, or should we have 
a broader approach?
    Senator Nunn. Ensuring adequate stockpiles of medical supplies, 
including key drugs and vaccines, is crucial for an optimal response to 
a bioweapon attack. The actions taken by HHS recently to produce 
additional smallpox vaccine and stockpile Cipro have extended our 
previous efforts in this area in an appropriate direction. But we need 
to keep in mind that smallpox and anthrax are not the only two threats 
we face. Plague, tularemia, Q-fever, brucellosis, and hemorrhagic fever 
viruses are also on the list of worrisome agents, and we need to be 
sure that our efforts to prepare for smallpox or anthrax do not reduce 
the resources available to deal with these other pathogens. So while I 
would say that the recent efforts of HHS to deal with smallpox and 
anthrax have been valuable, we need to be sure that our efforts to 
reduce threats from these two pathogens do not lull us into complacency 
with respect to preparation for the large array of other threats we 
face.
    Dr. Hamre. Any comprehensive strategy must address the spectrum of 
efforts required to prepare for and respond to a bioterrorist attack. 
These include preventing, detecting, defending against, responding to, 
and recovering from an attack. Numerous Federal, state, and local 
actors must be coordinated in these efforts and numerous assets from 
across the Federal Government must be deployed in any effort. Vaccines 
and medicines would be one element of our Nation's biodefense, but we 
must also consider other tools and technologies for detection, defense, 
and remediation of a bioattack. Beyond the technical aspects of our 
response, we must also look at coordination and management of our 
response; information management and information systems; public 
education and media strategies; we need training and awareness of our 
public health community; and we must address numerous public policy 
issues which we have yet to consider.

    3. Senator Levin. Dr. Hamre, how well does DOD work with other 
Federal agencies (specifically CDC and NIH), local, and state 
authorities in coordinating efforts to fight bioterrorism?
    Dr. Hamre. I do not think there is an extensive working 
relationship between the Department and the health agencies, as well as 
with state and local entities. Medical professionals in DOD may work 
well with the CDC and NIH, but the Department as a whole has little 
systemic interaction. The most important perspective for DOD to 
maintain is that of providing direct assistance, training support and 
advice, and not necessarily directing the action. Local and state 
responders must remain the first line in the event of a terrorist 
attack, but the Defense Department can provide tremendous synergy to 
those efforts by applying its organizational and logistical assets to 
the equation. DOD can also provide assistance through its tremendous 
research, training, and exercise capabilities.

    4. Senator Levin. Dr. Hamre, how can Congress work to improve that 
coordination?
    Dr. Hamre. Congress can provide clear and consistent oversight 
across the myriad Federal agencies that have a role in responding to 
terrorist incidents. Many times, DOD must coordinate and work with 
other Federal agencies as it assists state and local authorities. 
Congressional support for that coordination and recognition of the role 
of the Federal Government as the second line of response in terrorist 
incidents, except those on Federal property, is crucial. It is critical 
that clear lines of responsibility and coordination between state, 
local, and Federal authorities be worked out in advance of any 
incident. Congress can greatly assist such efforts by requiring 
relevant Federal agencies to interface with state and local 
counterparts.

                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    5. Senator Collins. Colonel Larsen, in the Dark Winter scenario, 
the terrorists were able to spread smallpox in shopping malls. Where 
are we in terms of developing sensors/detection devices?
    Colonel Larsen. Current systems do not provide a biological 
detection equivalent of a ``fire alarm,'' with the development and 
fielding of such a system in the indefinable future. However, to get 
closer to the goal of an unattended comprehensive biological agent 
detector, the Federal Government has invested a great deal into both 
environmental and medical diagnostic systems. The leaders in research 
include the Department of Defense's Chemical and Biological Defense 
Program and the Defense Advanced Research Projects Agency and the 
Department of Energy's Chemical and Biological Nonproliferation 
Program. The following is a brief overview of these efforts.
    The Department of Defense Chemical and Biological Defense Program 
has already fielded the first generation of automated biological point 
detection systems that evaluate air samples for initial detection on 
the battlefield and at military installations. These automated samplers 
work in coordination with handheld kits to test surfaces for biological 
contamination. Standard laboratory procedures are then used to verify 
the field detection and diagnose patients. The Chemical and Biological 
Defense Program will soon field upgraded automated point detection 
systems making them more accurate, capable of identifying more agents, 
less costly and burdensome to operate, and portable. The improved point 
detector will be accompanied by enhanced laboratory equipment for the 
diagnosing of symptomatic patients and the confirmatory testing of 
environmental samples.
    The Defense Advanced Research Projects Agency is pursuing high-
risk/high pay-off technologies for medical diagnostics. Their effort is 
unique as it seeks technology solutions for simultaneously identifying 
a broad range of pathogens both known and presently unknown or 
bioengineered pathogens, continuous monitoring of infection in the 
body, and wearable, noninvasive broad-spectrum detection of infection 
in the body. Development pay-offs could lead to laboratory and field 
level systems for the early detection and diagnosis of threat 
pathogens.
    The Chemical and Biological Nonproliferation Program utilizes the 
ingenuity of the national laboratory system to pursue a broad range of 
technologies for environmental and medical detection of biological 
threats. In the near-term, they are supporting the environmental 
collection of samples at the Salt Lake City Winter Olympic Games and 
utilizing improved laboratory techniques and software for the early 
identification of a biological terrorism incident.
    Further, communities have begun purchasing the first generation of 
commercially developed biological point detectors. These systems 
include small air samplers (for use in a suspected contaminated space) 
and detection systems that still require laboratory confirmation. These 
systems have significant limitations and are relatively expensive 
pieces of gear for communities. I anticipate that the federally funded 
technologies will spin off, as technology matures, to enable more 
affordable commercial systems.

    6. Senator Collins. Colonel Larsen, where are we in developing new 
defenses to pathogens that are resistant to common antibiotics or 
vaccines?
    Colonel Larsen. The U.S. Government is pursuing several efforts to 
counter advanced biological agents that may be resistant to standard 
approaches. These approaches focus on what can be done immediately, in 
the mid-term, and what can be done in the far-term. One of the 
immediate approaches to counter potentially antibiotic-resistant 
biological agents, specifically anthrax, has been to prescribe an 
antibiotic thought to be more effective than standard treatments (that 
is, ciprofloxacin) until the susceptibility of the specific agent to 
standard treatments can be determined. Because of the mortality 
associated with several biological agents, two or more antibiotics in 
combination may be recommended (for example, anthrax might be treated 
with a combination of ciprofloxacin, rifampin, and vancomycin or 
clindamycin). Specific treatments would vary depending on the specific 
bacterial agent(s) to which a person was exposed and how rapidly the 
antibiotic-susceptibility of the agent could be diagnosed. (For more 
details on recent recommendations, see ``CDC Update: investigation of 
bioterrorism-related anthrax and interim guidelines for exposure 
management and antimicrobial therapy,'' October 2001. MMWR 2001; 
50:909--19.)
    The Department of Health and Human Services (HHS) is supporting a 
variety of projects that may yield benefits in the near through far-
term. Some of the key HHS research opportunities are detailed at http:/
/www.niaid.nih.gov/dmid/bioterrorism/, and include numerous projects 
and grants aimed at encouraging researchers to investigate new 
prevention strategies for those at risk of exposure, new treatments for 
those infected, and improved diagnostics. It will also fund basic 
research that provides a better understanding of the disease-causing 
organisms, particularly information gleaned from the genomes of these 
organisms. Some specific projects include the ongoing project at The 
Institute for Genomic Research to sequence the genome of the anthrax 
bacterium, a clinical study to determine if the current 15 million 
doses of smallpox vaccine might be safely diluted and thereby stretched 
to protect more people, and submission of an investigational new drug 
application to the Food and Drug Administration for the use of the 
antiviral drug cidofovir as an emergency smallpox treatment.
    In the mid-term, the U.S. Government is seeking means to increase 
the production and availability of vaccines and antibiotics to make 
them available in sufficient quantities to protect all potentially 
exposed individuals, including quantities sufficient for the United 
States and its allies. One specific approach is the plan to construct a 
national vaccine production facility to produce vaccines to counter 
biological agent threats, including vaccines to protect against 
anthrax, smallpox, and plague. The Department of Defense and Department 
of Health and Human Services are leading an interagency collaborative 
effort to develop the requirements to detail the construction, 
production, and operational plans for such a facility. Many of the 
details on plans for this facility were detailed by the Department of 
Defense in July 2001 in the ``Report on Biological Warfare Defense 
Vaccine Research and Development Programs.''
    In the far-term, research is being pursued to develop new 
antibiotics and vaccines that would be effective against novel and 
emerging biological threats. Key research efforts are directed by the 
Department of Defense Medical Biological Defense Research Program 
(MBDRP) and DARPA's Unconventional Pathogen Countermeasures (UCP) 
Program. In developing countermeasures to BW agents, the MBDRP uses a 
technical approach that focuses on four areas: (1) identifying 
mechanisms involved in disease process, (2) developing and evaluating 
products (including vaccines and drugs) to prevent or counter effects 
of toxins, bacteria, viruses, and genetically engineered threats. 
Examples of products include the development of the next generation 
anthrax vaccine based on the recombinant protective antigen and the 
demonstration of multi-agent vaccines, (3) developing methods to 
measure effectiveness of countermeasures in animal models that predict 
human response, and (4) developing diagnostic systems and reagents. The 
focus of the UCP program is the development of revolutionary, broad-
spectrum, medical countermeasures against significantly pathogenic 
microorganisms. countermeasures will be versatile enough to eliminate 
biological threats, whether from natural sources or modified through 
bioengineering or other manipulation. Strategies include, but are not 
limited to, defeat of a pathogen's ability to enter the body, traverse 
the bloodstream or lymphatics, and enter target tissues; identification 
of novel pathogen vulnerabilities based on fundamental, critical 
molecular mechanisms of survival or pathogenesis (e.g., Type III 
secretion, cellular energetics, virulence modulation); construction of 
unique, robust vehicles for the delivery of countermeasures into or 
within the body; and modulation of the advantageous and/or deleterious 
aspects of the immune response to significantly pathogenic 
microorganisms and/or their pathogenic products in the body.

    7. Senator Collins. Colonel Larsen, you mentioned that future 
attacks might be genetically engineered attacks. What should we be 
doing now in the field of genetics research to prevent and preempt 
these attacks in the future?
    Colonel Larsen. Genetic engineering is a two-edged sword. As soon 
as recombinant technologies were discovered, researchers sought to 
prevent what many believed would be the misapplication of genetic 
manipulation technologies to create more deadly pathogens. Based on 
several sources, it appears that genetically engineered biological 
agents have been developed and weaponized. However, advances in genetic 
engineering provide tremendous capabilities for preventing the threat 
from biological weapons. At the most fundamental level, genetic 
engineering techniques are being employed by a variety of organizations 
to map the genomes of pathogens. Potential threat agents, including the 
causative agents of plague, salmonella, and anthrax have had genome 
maps recently completed. This genetic information will yield critical 
information that will be useful in understanding disease pathogenesis 
and for developing medical countermeasures and improved diagnostic 
systems.
    An overview of responses to these threats was provided in a June 
1996 report by the Department of Defense Advances in Biotechnology and 
Genetic Engineering: Implications for the Development of New Biological 
Warfare Agents. This report outlines some significant technological 
trends, which may influence both the development of new threat agents 
and countermeasures against the threat: (1) genetically engineered 
``vectors'' in the form of modified infectious organisms will be 
increasingly employed as therapeutic tools in medicine, and the 
techniques will become more widely available, (2) strides will be made 
in the understanding of infectious disease mechanisms and in microbial 
genetics that are responsible for disease processes, (3) an increased 
understanding of the human immune system function and other disease 
mechanisms will in turn shed light on the circumstances that cause 
individual susceptibility to infectious disease, and (4) vaccines and 
antidotes will be improved over the far-term, perhaps to the point 
where ``classical'' biological agents will offer less utility as a 
means of causing casualties.

    8. Senator Collins. Colonel Larsen, what is being done now in the 
field of genetics and what investments are being made by DOD/medical 
communities today toward this end?
    Colonel Larsen. There are numerous projects exploiting advances in 
genetics and biotechnologies to develop countermeasures to biological 
agents. As mentioned, there is extensive basic research to map the 
genome of human pathogens. Separate genome mapping efforts are being 
sponsored by the Departments of Defense, Energy, and Health and Human 
Services, as well as private organizations. Under the Chemical and 
Biological Defense Program, the Department of Defense is sponsoring 
recombinant vaccine research and development efforts to counter 
specific biological agents. These vaccines are being developed to 
provide effective protection with very limited rates of adverse 
reactions. Some of the vaccine development efforts include (1) 
recombinant multivalent vaccine for Venezuelan Equine Encephalitis 
(VEE), (2) recombinant protective antigen (rPA) anthrax vaccine 
candidate, (3) recombinant plague (yersinia pestis) vaccine candidate, 
(4) a genetically characterized live, attenuated vaccine to counter 
Brucellae species, and (5) recombinant Botulinum vaccine. In addition, 
DOD is sponsoring research using naked DNA vaccines, replicon 
technologies, gene insertion, and gene shuffling techniques to 
demonstrate multivalent and multi-agent vaccines. Supporting these 
efforts is the development of needle-less delivery methods for 
recombinant protein vaccines. This includes techniques such as intra-
nasal and inhaled vaccines that would provide enhanced mucosal or 
systemic immunity to provide more effective protection against inhaled 
pathogens.
    DARPA is developing a variety of therapeutic countermeasures 
exploiting state-of-the-art techniques in genetic engineering. The 
objective of their efforts is to develop a suite of medical 
countermeasures against broad classes of biological pathogens 
(bacterial, viral, bioengineered, etc.) that share common mechanisms of 
pathogenesis. Some of the specific project objectives include the 
following:

        <bullet> Develop novel genomic countermeasures that target 
        multiple biological warfare pathogens using optimized small 
        molecule drugs to bind with high affinity to critical A-T rich 
        DNA sequences within the pathogen genome.
        <bullet> Develop a new class of small molecule antibiotics 
        effective against multiple biological warfare agents using RNA-
        based drug design.
        <bullet> Develop broad-spectrum small molecule inhibitors 
        against the essential bacterial cell division protein FtsZ.

    In addition to the development of therapeutics, DARPA is 
investigating the development for the rapid development of drug sub-
units and rapid methods to express biologically active proteins on the 
surface of gram-positive bacteria in order to support to production of 
drugs and vaccines.

    [Whereupon, at 12:52 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
